<html>
<title> - U.S. POLICY TOWARD BURMA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        U.S. POLICY TOWARD BURMA

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2009

                               __________

                           Serial No. 111-59

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
52-984                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7710071837140204031f121b075914">[email&#160;protected]</a>om.  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
     Brent Woolfork, Junior Professional Staff Member deg.<greek-l>
    Shanna Winters, Senior Policy Advisor and Counsel deg.<greek-l>
             Jasmeet Ahuja, Professional Staff Member deg.
         Jessica Lee, Junior Professional Staff Member<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kurt M. Campbell, Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......     6
Mr. Tom Malinowski, Advocacy Director, Human Rights Watch........    30
Chris Beyrer, M.D., MPH, Professor of Epidemiology, International 
  Health, and Health, Behavior, and Society, Johns Hopkins 
  Bloomberg School of Public Health..............................    42
Mr. Aung Din, Executive Director, U.S. Campaign for Burma........    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Kurt M. Campbell: Prepared statement...............    10
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California: Statement of Congressman Mark Souder..    27
Mr. Tom Malinowski: Prepared statement...........................    33
Chris Beyrer, M.D., MPH: Prepared statement......................    45
Mr. Aung Din: Prepared statement.................................    54

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs:
  Prepared statement.............................................    77
  Material submitted for the record..............................    79
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    87
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    88
Written responses from the Honorable Kurt M. Campbell to 
  questions submitted for the record by the Honorable Barbara 
  Lee, a Representative in Congress from the State of California.    94
Written responses from Chris Beyrer, M.D., MPH, to questions 
  submitted for the record by the Honorable Barbara Lee..........    98


                        U.S. POLICY TOWARD BURMA

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order.
    Today's hearing is obviously on the U.S. policy toward 
Burma. If we have our chair and ranking member of the relevant 
subcommittee, we will recognize them after the ranking member 
and I give our opening statements. We will recognize members 
who are here at the time of the gavel for any 1-minute opening 
statements they want to make.
    Secretary Campbell, it is good to see you.
    And I will now yield myself time for an opening statement.
    Thinking about Burma brings certain indelible images to 
mind: The brutal crackdown on courageous, saffron-robed monks 
protesting peacefully 2 years ago; the strength of purpose 
reflected in the face of opposition leader Aung San Suu Kyi, 
the only Nobel Peace Prize recipient who is held in captivity; 
the stark conditions <greek-l>created deg.described by former 
political prisoners held for years in ramshackle jails built 
during British colonial times; and nearly 100,000 child 
soldiers who are forced to bear arms to offset high rates of 
desertion in the military.
    Such images may no longer be on the front pages of our 
papers or brought to us on the nightly news, but during the 
next couple of hours, they should be kept in our thoughts. More 
than 2,000 Burmese political prisoners remain behind those 
bars. Aung San Suu Kyi is again sentenced to house arrest, this 
time under a convenient pretext to keep her from taking part in 
elections expected to be held next year--elections that the 
ruling junta in Burma is already maneuvering to undermine.
    Last month, the Obama administration announced a new U.S. 
policy toward Burma: Expanded engagement with the government 
while maintaining economic pressure on the leadership through 
existing sanctions.
    The purpose of this hearing is to assess the implications 
of this policy. Finding a workable international approach 
toward reform inside Burma is in our strategic interest and 
requires working on a solution with stakeholders such as China, 
India, the Association of Southeast Asian Nations (ASEAN); and 
the European Union.
    The administration's policy review was the result of a 
series of troubling developments: The crackdown on the Saffron 
Revolution in September 2007, the fraudulent national 
constitutional referendum held just days after Cyclone Nargis 
in May 2008, attacks against ethnic groups on the China-Burma 
border, and the re-sentencing of Aung San Suu Kyi despite 
widespread condemnation from the international community.
    Since the 1990s, the U.S. Government has imposed a number 
of economic and diplomatic sanctions in order to pressure the 
Burmese military regime to follow internationally accepted 
norms for human rights. These include the prohibition of 
investments in Burma by U.S. companies or persons, and targeted 
sanctions as mandated in the <greek-l>`` deg.Tom Lantos Block 
Burmese JADE Act<greek-l>'' deg. of 2007. During this hearing, 
we will consider the effectiveness of such measures, and ways 
in which they may need to be refined or better enforced.
    In announcing the new policy last month, Secretary of State 
Hillary Rodham Clinton said:

        ``We believe that sanctions remain important as part of 
        our policy, but by themselves they have not produced 
        the results that had been hoped for on behalf of the 
        people of Burma. Engagement versus sanctions is a false 
        choice in our opinion.''

    I agree with the Secretary that engagement and sanctions 
must be applied together for reforms to take place in Burma. It 
is also clear that our policy of isolation over the past two 
decades has resulted in China's growing political and 
commercial influence in Burma, and little progress in 
supporting those calling for reform.
    Historically, China's relationship with Burma has been 
precarious, but in our absence it has been strengthened. While 
China has sought international recognition as a rising global 
power, Beijing has become the strongest defender of Burma's 
repressive policies in the United Nations and other 
international fora, risking its reputation as a responsible 
global partner.
    Any changes in Burma will have a direct impact on China and 
other neighboring countries. The Burmese border regions have 
long been a bastion of drug smuggling, human trafficking, and 
other criminal activity, not to mention infectious disease--
none of which can be contained by political boundaries.
    Thailand and China have also seen a spike in the flow of 
refugees as thousands of Burmese have fled across the border to 
escape the intensified violence and egregious human rights 
violations against women, children, and ethnic minorities.
    There are troubling questions about military ties between 
Burma and North Korea, which Secretary Clinton has spoken about 
publicly, as well as nuclear weapons proliferation concerns 
stemming from that relationship. Burma has also been sending 
hundreds of officials to Russia for nuclear technology 
training, and is reportedly engaged in discussions to purchase 
a nuclear reactor from Russia.
    Next month, President Obama will go to Singapore to attend 
the APEC conference as well as the U.S.-ASEAN Summit. This will 
be a unique opportunity for the President to put into practice 
our country's new strategy of engagement in multilateral 
cooperation with our partners in the region on the Burma issue. 
Congress stands ready to augment the work of the 
administration. We want to strengthen the forces of change 
inside Burma.
    And as a symbol of our enduring solidarity with the people 
of Burma, we look forward to the ceremony next year at which 
this body will bestow its highest civilian honor on Aung San 
Suu Kyi, the Congressional Gold Medal. If this courageous 
freedom fighter is prevented by her government from traveling 
to the United States, the ceremony will proceed as planned, 
with a seat held open for her.
    I now turn to the distinguished ranking member, Ileana Ros-
Lehtinen, for any opening remarks she might wish to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And welcome to Assistant Secretary Campbell and to our 
distinguished panel of private witnesses later.
    As Winston Churchill warned, there is no greater mistake 
than to suppose that platitudes, smooth words, and timid 
policies offer a path to safety. I couldn't agree more. And in 
that vein, I wish to underscore that I oppose dialogue with the 
Burmese military junta and oppose the offer of further carrots 
in the form of expanded economic assistance.
    Not surprisingly, engagement has been tried and it has 
failed. The Bush administration engaged with the Burmese junta 
twice. Former Deputy Assistant Secretary Eric John, now our 
Ambassador to Thailand, flew to Beijing in June 2007, a mere 2 
years ago, to engage with representatives of the Burmese 
regime. And what was the junta's response to Mr. John's request 
for a more open and humane political system? Following street 
protests a few months later, in which Buddhist monks joined 
students, political activists, and ordinary citizens, the 
regime responded with batons and bullets.
    The junta's harsh repression of the Saffron Revolution, 
named for the color of the monks' robes, was witnessed in 
horrified visions seen by viewers on TV screens all around the 
world. Midnight raids on monasteries followed, where 
eyewitnesses reported that troops were beating and killing 
monks.
    The Bush administration's second attempt at engagement 
followed the cyclone which hit Burma in May 2008, leaving an 
estimated 146,000 dead and so many more homeless. Then-U.S. 
Agency for International Development Administrator Henrietta 
Fore and Admiral Timothy Keating of the U.S. Pacific Command 
flew into Burma in the storm's aftermath with initial relief 
supplies. They met with the regime's top naval officer, who 
indicated that the delivery of further American relief 
assistance would be permitted. Subsequently, however, four U.S. 
Navy ships carrying relief supplies had to abort their mission 
after waiting in vain for over 3 weeks for permission to assist 
storm victims. U.S. humanitarian efforts were described by the 
regime-controlled media as the U.S. military preparing an 
invasion.
    Congress took a different approach to the continued 
atrocities and belligerence of the Burmese regime. Our 
distinguished former chairman and my dear friend, Tom Lantos, 
and I introduced and fought for the adoption of the 
<greek-l>`` deg.Tom Lantos Block Burmese JADE 
Act.<greek-l>'' deg. The JADE Act includes new restrictions on 
the importation of gemstones and other new sanctions against 
the regime, its family members, and their cronies.
    It was signed into law in July of last year, only 15 months 
ago. U.S. policy, therefore, should focus on the full and 
robust implementation of the measures contained in this law, 
rather than focusing on engagement and inducements for the 
Burmese regime.
    The actions and the policies of this regime are of 
increasing, rather than decreasing, concern. This summer, we 
learned through Australian reporting of interviews with Burmese 
defectors that the military junta appears far more engaged in 
nuclear proliferation activities with North Korea than ever 
previously suspected.
    U.S. Navy vessels spent part of this summer in the South 
China Sea, tracking the movement of a North Korean merchant 
vessel suspected of carrying missile parts destined for Burma 
before it got turned back due to international pressure. A 
Burmese kangaroo court just extended the house arrest of 
democracy advocate and Nobel Peace Prize winner Aung San Suu 
Kyi for another 18 months on trumped-up charges so that she is 
effectively blocked from playing any role in the upcoming 
elections.
    Isn't there a grave danger that the regime will launch an 
offensive prior to the scheduled elections to pacify border 
areas through bloody assaults, including the burning and 
pillaging of villages, gang rape, mass murder, mutilation, 
forced labor, and child soldiering? Haven't ethnic ceasefire 
groups which reject the regime's demand that they join a junta-
controlled border guard force been warned of the dire 
consequences for themselves and their people? Hasn't the 
Burmese junta responded to the latest American overtures by 
imprisoning and torturing a United States citizen?
    In light of this, how can anyone credibly argue that 
engaging the Burmese regime with new carrots, however fresh, 
particularly as its behavior is getting markedly worse, advance 
U.S. security interests and our foreign policy priorities? The 
U.S. must heed Churchill's warning about supposing that smooth 
words and timid policies offer a path to safety.
    I look forward to our witnesses' testimony.
    Thank you, Mr. Chairman, for the time.
    Chairman Berman. I thank the ranking member.
    Any members wish to be heard on this issue?
    Ambassador Watson, you are recognized for 1 minute.
    Ms. Watson. Thank you, Mr. Chairman, for holding this 
timely hearing on the United States and Burma relations. With 
the new administration in place, I believe the time has come 
for a cohesive policy and changes that will finally bring 
positive change to Burma.
    For decades, the military-dominated Burmese Government has 
perpetrated human rights abuses of the most serious kind. 
Minority women and children are raped and sold into sexual 
slavery, and the government has mismanaged a once-vibrant 
economy. Political opposition has been prevented.
    So, with the questionable elections looming in the near 
future, I hope that our panelists can enlighten us as to the 
steps the United States can take to help improve the situation 
of the people of Burma.
    Thank you again, Mr. Chairman. I yield back the balance of 
my time.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 1 minute.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And I will have more to say later on when we have some 
dialogue. But, Mr. Secretary, thank you very much for being 
with us today.
    I think that there is reason for alarm among people who 
believe in liberty and freedom as to what the policies of this 
administration will be. I mean, we see the President overseas 
apologizing to tyrants and people who oppress their own people. 
And we are going to watch very closely what is going on in 
Burma, because for us to be expanding our relationships, 
opening up ties with the Burmese junta is the worst possible 
course of action. It is immoral. It is going to send the wrong 
message to the Burmese dictatorship. It is going to send the 
wrong message to the Burmese people.
    We are watching very carefully. What we do in Burma will 
reflect not only on our own country, but it will really reflect 
what this administration stands for. So I am looking forward to 
hearing your testimony to see if we are slipping into a 
situation where we are going to be buddies with horrible 
regimes like that that exists in Burma.
    Thank you.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Texas, Ms. Sheila Jackson Lee, is 
recognized for 1 minute.
    Ms. Jackson Lee. Mr. Chairman, let me thank you very much.
    And the question would be: With all that we have to do in 
the United States with Iraq and Afghanistan and Pakistan, what 
more time do we have?
    And I would say to the administration, I am pleased that 
President Barack Obama is leading our country in foreign 
policy, because, frankly, I believe that there will be a 
change.
    In the name of my constituent from Houston, Texas, who has 
begged for some relief, I believe it is time for America to act 
now. The most heinous, the most horrific, the most devastating 
administration is in Burma, where they spend no money for 
health care, where there is no freedom of press, where there 
are 2,200 prisoners, and worse, Aung San Suu Kyi is literally 
incarcerated and threatened with her life.
    My words are that we have to act now. Burma is an atrocious 
and despicable nation that does not deserve the respect of the 
world. And I believe that this committee, Mr. Chairman, with 
your leadership, has much to do in denouncing this nation 
because, obviously, collaboration, engagement is not the 
attractive call for Burma. Because these words--and I will 
close----
    Chairman Berman. The time of the gentlelady has expired.
    Ms. Jackson Lee. They not intimidated. They simply won't 
intimidate us.
    I yield back.
    Chairman Berman. Any further comments?
    The gentleman from New York, Mr. Crowley, is recognized for 
1 minute.
    Mr. Crowley. I thank you, Mr. Chairman, and Ranking Member 
Ros-Lehtinen for organizing today's hearing.
    Welcome, Assistant Secretary.
    There is no partisanship when it comes to the issue of 
democracy for Burma. And today's hearing is further evidence 
that Democrats and Republicans are alike committed to this 
cause.
    Just over a year ago, the House of Representatives and the 
Senate voted to award Aung San Suu Kyi the Congressional Gold 
Medal, Congress's highest civilian honor. I spearheaded that 
effort not only to honor Aung San Suu Kyi's tireless efforts to 
bring freedom to her people but to shed light on the horrible 
atrocities being committed against the Burmese people by the 
ruling military junta.
    And I am sad to say that, at the same time the U.S. Mint is 
finalizing the medal for Aung San Suu Kyi, the displacement of 
refugees, the destruction of villages, and the raping of women 
continues without abandon in Burma.
    As well, I join my colleagues in hoping to hear from the 
administration just what the plans are to address the issue of 
Burma, for the Burmese people but, I also believe, for the 
United States and for what we stand for.
    And, with that, I yield back, Mr. Chairman.
    Chairman Berman. I will now introduce our first witness. We 
are going to have Secretary Campbell, and then we will have a 
second panel.
    Kurt Campbell is Assistant Secretary of State for East 
Asian and Pacific Affairs. Previously, he was the CEO and co-
founder of the Center for New American Security and 
concurrently served as the director of the Aspen Strategy 
Group.
    Dr. Campbell has worked extensively in both the private 
sector and in government, including as a senior vice president 
of the Center for Strategic and International Studies; founder 
of StratAsia, a strategic advisory firm; associate professor of 
public policy at the John F. Kennedy School of Government; 
Deputy Assistant Secretary of Defense for Asia; and the Pacific 
director of the National Security Council staff.
    Secretary Campbell, I will delay the introduction of the 
other witnesses until the next panel, and we look forward to 
your testimony.

    STATEMENT OF THE HONORABLE KURT M. CAMPBELL, ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Campbell. Thank you very much.
    Mr. Chairman, Ms. Ros-Lehtinen, and members of the 
committee, thank you very much for inviting me here today to 
testify about U.S. policy toward Burma and a possible new 
direction for United States-Burma relations.
    I would like to submit my full testimony for the record and 
summarize here quickly and briefly some of the points therein. 
I appreciate this opportunity to discuss the overarching 
assessments that helped shape our review that has been ongoing 
for the last 7 months.
    As Secretary Clinton mentioned on her first trip to ASEAN, 
neither sanctions nor engagement implemented alone have 
succeeded in improving the deplorable conditions that currently 
exist in Burma. And we need to take a new approach if we hope 
to move Burma onto a path toward democratic reform.
    It was clear to us that the problems that Burma presents 
not only to its people but to its neighbors, the wider region, 
and the world at large, demand that we review and consider our 
existing approach. In addition to taking a hard look at the 
current situation inside Burma, we also focused on emerging 
questions and concerns regarding Burma's relationship with 
North Korea, something that the chairman has already mentioned, 
particularly in light of the passage of U.N. Security Council 
Resolution 1874.
    This resolution prohibits member states from engaging in 
trade with North Korea in virtually all conventional weapons, 
as well as in sensitive technologies, including those related 
to ballistic missiles and other weapons of mass destruction 
programs.
    Our policy review was also informed by the fact that, for 
the first time in recent memory, the Burmese leadership, the 
military leadership, has shown an active interest in engaging 
with the United States.
    But let me be very clear here to the members today: We have 
decided to engage with Burma because we believe it is in our 
interest to do so. We have consulted widely throughout the 
review process with Congress, other governments, and key 
stakeholders such as nongovernmental organizations, business 
leaders, academics, and representatives of international 
organizations. We also have consulted with the National League 
for Democracy and other democratic activists inside Burma. And, 
generally speaking, they have applauded this new approach.
    The conclusions of our review, our policy review, announced 
last month, reaffirmed our fundamental interests in Burma. We 
support a unified, peaceful, prosperous, and democratic Burma. 
While our goals in Burma remain the same as before, the policy 
review confirmed that we need additional tools to augment those 
that we have been using in pursuit of our objectives.
    A policy of pragmatic engagement with the Burmese 
authorities holds the best hope, in our judgment, for advancing 
our goals. A central element of this approach is a direct, 
senior-level dialogue with representatives of the Burmese 
leadership.
    In our discussions, we will discuss our proliferation 
concerns and Burma's close military relationship with North 
Korea. Burma has said it is committed to complying fully with 
U.N. Security Resolutions 1718 and 1874. Nevertheless, we 
remain concerned about the nature and extent of Burma's ties 
with North Korea. Full and transparent implementation of these 
resolutions is critical to global peace and security, and we 
will be looking to the Burmese authorities to deliver on their 
commitments.
    Through a direct dialogue, we will also be able to test the 
intentions of the Burmese leadership and the sincerity of their 
expressed interest in a more positive relationship with the 
United States. The way forward will be clearly tied to concrete 
actions on the ground on the part of the Burmese leadership to 
address our core interests, particularly those in the area of 
democracy and human rights.
    We expect engagement with Burma to be a long, slow, 
painful, and step-by-step process. We will not judge the 
success of our effort at pragmatic engagement by the results of 
a handful of meetings. Engagement for its own sake is obviously 
not a goal for U.S. policy, but we recognize that achieving 
meaningful change in Burma will take time.
    We will work to ensure that the Burmese leaders have an 
absolutely clear understanding of our goals for this dialogue 
and the core issues on our agenda. A fundamentally different 
United States-Burma relationship will require real progress on 
democracy and human rights.
    We will continue to press for the unconditional release of 
Aung San Suu Kyi and all political prisoners; an end to 
conflicts with ethnic minority groups inside the country; 
accountability of those responsible for human rights 
violations; and the initiation of genuine dialogue among the 
Burmese Government, the democratic opposition, and the ethnic 
minorities on a shared vision for a way forward inside the 
country.
    This last issue is critical, since only the Burmese people 
themselves can determine the future of their country. Our 
intent is to use our dialogue with the Burmese authorities to 
facilitate that process, particularly in the short term.
    Only if the Government of Burma makes progress toward these 
goals will it be possible to improve our bilateral relationship 
in a step-by-step process.
    Our administration's own senior-level dialogue with the 
Burmese Government began with the first meeting in New York on 
September 29th. I led the U.S. delegation. And my counterpart 
on the Burmese side was U Thaung, the Burmese Minister for 
Science and Technology and former Ambassador to the United 
States. The Burmese Permanent Representative to the U.N. also 
participated in these discussions.
    These were substantive talks that lasted approximately 2 
hours. We laid out our views clearly, and I stressed to U 
Thaung that this dialogue is an opportunity, perhaps the last 
opportunity, for Burma if the authorities are ready to move 
forward.
    This was an introductory meeting. It will take more than a 
single conversation to resolve our differences. We intend to go 
to Burma in the next few weeks for a fact-finding mission. 
During that trip, we will talk to the Burmese Government, 
representatives of the ethnic nationalities, and the democratic 
opposition, including the National League for Democracy, Aung 
San Suu Kyi, and others.
    In addition, one of the factors of our policy review called 
for an intensified dialogue not only with Southeast Asia but 
with China and India. We had our first discussions in Beijing 
last week, as well, and I would be pleased to discuss those in 
our question-and-answer period. And we, of course, are 
committed to keep the committee closely informed of our 
progress on these issues going forward.
    I want to just underscore a point that has been made on 
several occasions but cannot be made enough. Our dialogue with 
Burma will supplement, rather than replace, the sanctions 
regime that has been at the center of our Burma policy for many 
years. Lifting or easing sanctions at the outset of a dialogue 
without meaningful progress on the ground on our core concerns 
would be a serious mistake. We will maintain our existing 
sanctions until we see concrete progress and will continue to 
work with the international community to ensure that those 
sanctions are effectively coordinated. We believe any easing of 
sanctions now would send the wrong signal to those who have 
been striving for so many years for democracy in Burma, to our 
partners in the region and elsewhere, and to the Burmese 
leadership itself.
    Through our dialogue, we also will make clear to the 
Burmese leadership that relations with the United States can 
only be improved in a step-by-step process if the Burmese 
Government takes meaningful actions that address our core 
concerns.
    In conclusion, let me just say that one of the things that 
I think has been most impressive about Burma policy over the 
course of the last many years is the degree of bipartisan 
cooperation that we see on Capitol Hill. It is a model for how 
I see government should function. My team is committed, Mr. 
Chairman, Ranking Member, in working as closely as possible 
with you to keeping you fully appraised of any developments as 
we go forward.
    With that, I would be happy to take any questions or 
comments on our approach and what we propose to do in the near 
future. Thank you very much for this opportunity.
    [The prepared statement of Mr. Campbell 
follows:]<greek-l>Kurt Campbell deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Well, thank you, Secretary Campbell.
    And I will yield myself 5 minutes, which will include 
questions and the answers, initially.
    You had discussions recently with Chinese officials 
regarding this subject. What was their response when you, as I 
understand it, told Beijing that it needed to play a positive 
role in promoting reform in Burma? Did the Chinese make any 
specific commitments relating to the improvement of conditions 
inside Burma?
    Mr. Campbell. Thank you very much, Mr. Chairman.
    Let me first say that, as we looked at the strategic 
situation and particularly developments over the last decade, 
one of the inescapable conclusions that we came to was that the 
engagement of China, India, and other countries in Southeast 
Asia, but particularly China and India and Burma, had increased 
almost exponentially: Trade, investment, military ties, and the 
like. And we thought it was absolutely critical, as part of 
this review, to look at this context.
    In my trip to Beijing last week, I had a chance to meet 
with the senior-most officials who focus on Burma and have 
really almost unique access inside that country. I think it 
would be fair to characterize those discussions, first, by 
saying that the Chinese are intensely interested in our 
proposed dialogues. They see that the United States is stepping 
up its overall engagement in Southeast Asia; they are watching 
that carefully.
    I asked specifically for Chinese assistance, particularly 
in terms of establishing a dialogue with internal parties in 
advance of the 2010 elections. And I asked for China's overall 
support for the U.S. policy of engagement. The Chinese, in 
turn, indicated that they thought that sanctions were unhelpful 
and that the United States should be prepared to move quickly 
on this. I was very clear that the U.S. approach would be that 
nothing along these lines could develop in any way unless we 
saw concrete steps on the ground.
    I promised our Chinese interlocutors that we would continue 
a dialogue going forward. And I will have a similar discussion 
with Indian friends in the weeks to come.
    Thank you.
    Chairman Berman. Thank you.
    When the GAO made its recent report on the efficacy of 
import prohibitions under the JADE Act, the State Department 
said that an international consensus on an import ban is 
lacking, despite U.S. efforts.
    Tell us, who has the U.S. approached to make these import 
sanctions more efficacious? What are the results of those 
discussions?
    Putting aside China, which you have mentioned, what is our 
work with the EU doing on this kind of an issue toward building 
that kind of international consensus to support those kind of 
sanctions?
    And all this is in the context of enforcing the sanctions 
we have, as you seek to open up engagement.
    Mr. Campbell. Thank you very much, Mr. Chairman.
    Let me say, I have had a chance to study the GAO report on 
the JADE Act and other aspects of our sanction regime. I think 
the GAO report makes clear that there are some efforts, as part 
of the JADE Act, that have been effective, but it also points 
out some of the difficulties in implementing certain aspects of 
the act, particularly as it relates to certain gem practices 
across the border between Burma and Thailand.
    We have had extensive discussions with our friends in 
Thailand about this act. They have had, as you know, some 
concerns that they want in no way that the provisions of this 
act to impact their own industries. We have tried to take steps 
to make sure that that does not occur.
    Our discussions with our EU colleagues are ongoing. I think 
it would be fair to say that the JADE Act implementation is 
still a work in progress. I think aspects of it have been 
successful. But, as we go forward, in addition to a specific 
dialogue on these issues of human rights, on questions of 
proliferation, we need to also continue to take our actions on 
perfecting existing sanctions legislation. And we intend to do 
that with respect to the JADE Act.
    Chairman Berman. I thank you.
    And I am going to now yield to the ranking member for 5 
minutes for her questions.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And if I could follow up on the chairman's question 
regarding the JADE Act, as you know, it was passed to put 
pressure on the Burmese regime and prevent the regime from 
profiting from international trade in jade.
    But, in September of this year, the GAO made its report 
known, as the chairman pointed out, and the GAO reported that 
the provisions of the legislation are not being effectively 
implemented by us--I don't want to talk about the EU and other 
partners, but the United States. And, according to the GAO, the 
report submitted by the State Department to Congress, and I 
quote, ``had little information on progress or the challenges 
involved in gaining international support.''<greek-l> end 
quote. deg.
    And, since that report, our U.S. Trade Representative has 
not requested a WTO waiver, nor has the State Department made 
discernible progress in introducing a U.N. resolution or 
negotiating a Kimberley-like process.
    So I would like to follow up on the chairman's questions 
about what steps we are actually taking, specific steps, to 
address the deficiencies identified by the GAO and fully 
implement the provisions of the act.
    Mr. Campbell. Thank you very much, Congresswoman.
    The primary focus of our effort over the course of the last 
several months has been in consultations associated with the 
review of our overall policy. We have had discussions in 
Southeast Asia, in particular, about aspects of the JADE Act. 
And I have had consultations and discussions with the U.S. 
Trade Representative's office on this.
    The report makes clear that some of the limitations 
associated with the implementation of the act bear little 
responsibility in terms of the direct actions of the U.S. 
Government, just the challenges associated with specific 
aspects of tracking some specifics associated with jade and the 
like.
    At the same time, we recognize that further steps need to 
be taken, primarily in consultations with our friends in 
Southeast Asia but also in the EU. And I would commit to you 
that I will be involved in those consultations closely.
    There are other aspects. As you know, the JADE Act calls 
for a coordinator--the administration is committed to doing 
that, taking those steps--and to a further dialogue with other 
countries in Southeast Asia about potential steps associated 
with this overall approach.
    I don't think I need to tell you that, generally speaking, 
in our discussions in Southeast Asia about sanctions policy, we 
have had very little support overall. And I think Europe, as a 
consequence of our own policy, of our own policy of----
    Ms. Ros-Lehtinen. Thank you. I am going to interrupt just 
because I have such little time left, and I wanted to ask a 
second question.
    China has reportedly begun construction of refugee camps on 
the Burmese border in anticipation of a pre-election military 
offensive by the military junta against ethnic armed militia.
    If these militias reject the regime's demand to be 
incorporated into a border guard force and a bloodbath ensues, 
how will this impact our new policy of engagement with this 
bloodthirsty regime?
    Mr. Campbell. First of all, we made very clear that we 
deplore these military actions against ethnic groups inside 
Burma. And one of the issues that we called for in our dialogue 
with Chinese friends is to urge restraint in this regard.
    Our goal in our initial discussions inside the country will 
be to ask for a dialogue, not just with opposition political 
groups, but with ethnic groups about the future of Burma, 
including the 2010 elections.
    The truth is, as you well know, that some of these military 
actions are not on the horizon; they have already occurred. We 
have seen a number of actions over the course of the last 
several months, and they are worrisome.
    Ms. Ros-Lehtinen. Thank you. Thank you so much, Mr. 
Secretary.
    And thank you, Mr. Chairman, for the time.
    Chairman Berman. The time of the gentlelady has been 
yielded back.
    And the gentlelady from California, Ms. Watson, is 
recognized for 5 minutes.
    Ms. Watson. One of the things that I have been concerned 
about is, what are the objectives of this particular government 
and those that are trying to overthrow it? I mean, what is 
Burma really trying to do with its governance?
    Mr. Campbell. You are asking, what are the goals and 
objectives of the military junta?
    Ms. Watson. Yes. Yes.
    Mr. Campbell. I think that this is a group of men that have 
self-isolated themselves from much of global commerce and 
global politics. I think they have a deeply insular view of 
their situation. They see threats surrounding them. They have 
taken brutal steps to any sign of domestic opposition.
    I would say, in my particular area, the country that we 
know the least about at a fundamental level, even less than 
North Korea, is Burma. And I think one of the goals and 
objectives of at least a limited dialogue is to try to glean 
more for what they see is the way forward.
    I find it surprising that, after going to the effort of 
putting forward a referendum and then taking steps to initiate 
elections in 2010, that they would do so in such a way that 
they garnered absolutely no international support or 
recognition.
    I think that one of our fundamental goals in this dialogue 
is not simply to look at the current situation but, hopefully, 
to reach elements in civil society and elsewhere in the next 
generation who could or will play a role in the governance and 
the leadership of the country going forward.
    So I would just simply say that I think your question is 
one that we think of on a very daily basis. It is also the case 
that we want to get a better sense of why this government is 
now interested in dealing and interacting with the United 
States after, for many, many years, choosing not to engage in 
direct dialogue with us.
    Ms. Watson. I understand that Thailand has been very 
alarmed by the refugees that are pouring into their nation and 
now has a significant Burmese opposition movement. The Chinese 
officials are also displeased by the Burmese refugees flooding 
into the country and causing instability there.
    And so the ASEAN summit is later this month meeting; they 
are going to meet. And APEC will follow the next month. And how 
does our President plan to encourage the Asian countries to 
adopt a united policy toward Burma at these meetings?
    Mr. Campbell. Thank you very much.
    One of the things that the President and the Secretary have 
insisted upon is that, as we begin a process of careful, 
pragmatic diplomacy between the United States and Burma, that 
we must be much more closely integrated in our overall efforts 
with countries in Southeast Asia.
    That is one of the reasons why the President chose to hold 
a U.S.-ASEAN summit around the APEC meeting in Singapore 
scheduled in mid-November. And one of the subjects that we will 
discuss, of course, is closer coordination on how to deal with 
the challenges presented by Burma.
    And I just want to be clear that we have talked primarily 
to date about issues associated with democracy, human rights, 
and the like. But the challenges presented by Burma transcend 
those issues. We have some national security issues that are 
also paramount, as well.
    Ms. Watson. Who do you perceive will be participating in 
these talks?
    Mr. Campbell. On which side, Madam Congresswoman?
    Ms. Watson. Well, we want to open up channels of 
communication with the Burmese leadership. Who is that, for 
real? You know, I really--it is so murky.
    Mr. Campbell. And I apologize. Are you asking who on the 
U.S. side or who on their side?
    Ms. Watson. Their side.
    Mr. Campbell. Very difficult. I mean, for a dialogue with--
should I answer?
    Chairman Berman. Yes, just get that answer, and then----
    Mr. Campbell. Sorry. For a dialogue to be effective, it 
will have to be at a relatively senior level in their 
government. And for our Government, at the early stages, I will 
lead that effort.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    As I said, there is ample reason for alarm from those of us 
who do believe in human rights as having a priority in 
America's policies. Let me just note that what I have heard 
today makes me even more alarmed as to what this administration 
will be saying to the world and what we will be saying to the 
world about what our standards are.
    With all due respect, we know all about Burma. It is not an 
unknown quantity. We know what is going on in Burma. It has a 
vicious, gangster regime, one of the most despicable regimes in 
this planet, where they hold force and power by brutalizing 
their own people. And we don't need to know more about that; we 
know about that.
    And the fact that there hasn't been significant change, I 
don't think we need to apologize for our policies for that. Our 
policies didn't do that. And we don't need to apologize to the 
Iranians; we don't need to apologize to groups like this.
    And by sitting down at the table with them, we legitimatize 
them. We are saying that they are a legitimate government to 
sit down with. They are not. We believe here, Mr. Secretary, 
that no government has rights unless they have the consent of 
the governed. This is a group of gangsters that hold power 
through terror.
    The Chinese, I might add, when you were discussing this--
and I have just a couple things to say, and then I will let you 
come back at this--but the Chinese are arming the Burmese. When 
we were talking to the Chinese about this, did we ask them, 
will you stop providing all the weapons needed for Burma?
    Let's note, you mentioned in your opening statement that 
there might be an expansion of humanitarian assistance? We are 
going to take money that--we are already in deficit, of course. 
Half the money we spend is already being borrowed. But we are 
going to borrow money to give humanitarian assistance in Burma 
while the Burmese junta uses all of their money to buy weapons 
and tools of repression? This is insanity.
    Instead of talking to the Burmese gangsters who run that 
country, we should be--just because they are in uniform doesn't 
mean they are military people. These are gangsters. We should 
be asking the people in the military there who are just 
citizens to turn their guns on their oppressors and free their 
country from this despicable tyranny.
    And it doesn't--I will tell you something. After listening 
to what you have to say, saying that we are going to have this 
new approach and we are going to have this senior-level 
dialogue--senior-level, so we are going to go right up to Adolf 
Hitler or Joe Stalin and have some very serious talks with them 
about those guys, about respecting the rights of their 
countrymen.
    I would suggest, Mr. Secretary, that what gangster regimes 
like this understand is when we take tough stands against them, 
rather than trying to treat them courteously as if they are a 
democratic government. I think that apologizing to the Iranians 
is going to have a bad impact. I think that sitting down, 
legitimatizing the Government of Burma is going to have a bad 
result, as well. And while I wish President Obama success, 
these policies will not lead to the type of world that he was 
telling us about.
    There is a saying, ``You can't''--and we can talk about 
Aung San Suu Kyi and our concern about these people all you 
want. But there is a saying that says, ``You can't champion the 
oppressed unless you are willing to take on the oppressor.'' 
And if we sit down and legitimatize the oppressors of this 
world, don't expect change.
    And I will be happy to give you my last minute to have a 
retort to that statement.
    Mr. Campbell. Thank you very much, Congressman Rohrabacher.
    At one of our earlier sessions that I had the pleasure of 
testifying before you, you had indicated that you thought the 
United States had been painfully absent in our engagement 
policy in Southeast Asia and that, in the current context, that 
we were being easily outcompeted by China.
    And I think one of the points that we have tried to 
underscore in this overall approach is a need to step up our 
game in Southeast Asia. And part of that is what we think will 
be through a responsible and very clear-headed approach of 
pragmatic dialogue with Burma, fully informed by a close 
dialogue with our colleagues on Capitol Hill.
    And I think you are exactly right; the United States has no 
business in this context apologizing for anything that we have 
proposed to do on the international scene. And I would just 
simply say----
    Chairman Berman. The----
    Mr. Campbell [continuing]. In terms of, if I could just 
quickly--thank you very much, Mr. Chairman--in terms of U.S. 
assistance for Burma, our humanitarian assistance really 
focuses on Burma's borders with Thailand and the areas that 
were affected by Cyclone Nargis, cross-border democracy 
assistance and educational programs, health care, infectious 
disease, and civil society assistance programs inside Burma.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Sires, is recognized.
    Mr. Sires. Thank you, Mr. Chairman.
    Thank you for being here.
    And you talked about the current sanctions and the recent 
push for dialogue. What would it take for this administration 
to respond to pursue tighter sanctions against the Burmese 
Government? I mean, what would push our button to say, ``Hey, 
no more dialogue, here is what we are doing''? And what are the 
options that we have?
    Mr. Campbell. Thank you.
    Congressman, I don't know if I want to get into specific 
hypotheticals, but I will say there are a few things that we 
are watching very closely.
    I think signs that Burma is not heeding our concerns 
associated with U.N. Resolution----
    Mr. Sires. But we are thinking beyond this dialogue 
approach?
    Mr. Campbell. Oh, of course, yeah. If we are unsuccessful 
in encouraging progress on issues associated with 1874, then 
you will see a much higher level of concern inside the U.S. 
Government.
    And that is simply one issue. Obviously, there are a number 
of domestic issues that we watch and that we track on a very 
current and urgent basis.
    Mr. Sires. What are the options that we have left to make 
it tighter and to make it more difficult for the Burmese 
Government?
    Mr. Campbell. I am sorry. What----
    Mr. Sires. What options do we have, you know, beyond----
    Mr. Campbell. There are always possibilities for greater 
sanctions using other mechanisms. You could imagine--let me say 
that, in the current situation, in our private discussions with 
friends surrounding Burma, indications that the government 
might be flirting or considering other kinds of military 
interactions with North Korea and other states, that has caused 
some disquiet. And if those developments continued, I think you 
would see a growing anxiety, not just in the United States, but 
in other countries in the surrounding region that would give us 
more room for dialogue around these steps.
    Our goal is to present a very clear path forward, hopefully 
indicating steps that could lead toward greater progress and 
toward greater international engagement overall.
    Mr. Sires. Do we have any kind of dialogue with the 
opposition?
    Mr. Campbell. Oh, yes, of course. And, in fact, one of the 
things that Aung San Suu Kyi has called for is a parallel 
engagement, that we would not only be involved in a dialogue 
with the government but a dialogue with her and other groups 
inside the country. And I think that is a very wise counsel and 
one that we would seek to follow.
    I must also say that the National League of Democracy has 
looked carefully and studied every aspect of our approach. And, 
at the current time, they support this overall effort. They 
want to learn more, they want to engage with us, but they are 
prepared for us to move forward in this regard.
    Mr. Sires. Thank you very much.
    Chairman Berman. The gentleman has yielded back his time.
    The gentleman from Arizona, Mr. Flake, is recognized for 5 
minutes.
    Mr. Flake. Thank you, Mr. Chairman.
    You had mentioned--you started to mention, with regard to 
sanctions, cooperation or lack thereof with--you mentioned 
there is very little support from Southeast Asia.
    What percentage of Burmese trade goes to Southeast Asia? 
Who are their biggest trading partners right now?
    Mr. Campbell. There are a number of studies that have been 
done on the Burmese economy. It is difficult to get the 
clearest possible picture, not only because of the 
mismanagement of their own economy and the secrecy surrounding 
many of their financial transactions--but our best judgment is 
that the three largest trading partners, probably, in no 
corresponding order, would be China, Thailand, and a 
substantial growth in recent years in India.
    But other countries in Southeast Asia play a critical role 
in the financial system there, Singapore and others. And there 
are a number of other states that are deeply involved in the 
energy sector, particularly some European states, as well. 
And----
    Mr. Flake. Let me just follow that. How much impact can our 
sanctions have without cooperation from these countries?
    Mr. Campbell. We can pose some modest inconveniences.
    Mr. Flake. Modest inconveniences. All right.
    Have we received a response to our diplomatic note 
protesting the reported abuse by Burmese authorities of U.S. 
citizen Kyaw Zaw Lwin following his arrest at Rangoon's airport 
on September 3rd? Has this issue been raised with the Burmese 
when you talk to them, about the possible torture of a U.S. 
citizen?
    Mr. Campbell. Yes, our charge has raised this in Rangoon 
with Burmese officials. We have sought greater information. And 
I would like to be able to get back with you subsequently, 
Congressman, on some steps that we are prepared to take in the 
near future.
    Mr. Flake. But, as far as their response, you are not 
prepared to give that at this point?
    Mr. Campbell. I do not know what their response has been to 
our specific requests, no.
    Mr. Flake. Back to sanctions for a minute. You started to 
mention, I believe, our European allies. What cooperation have 
we had from them with regard to sanctions?
    Mr. Campbell. Well, we have had--some countries have 
provided very strong support. Others have provided rhetorical 
support. But some of the most important sectors, particularly 
energy, which is the largest growing sector inside the country, 
are still dominated by foreign energy firms.
    Mr. Flake. The population in Burma--sometimes the reason we 
shy away from sanctions is that it may turn the population 
against us. Is there any sense that the population in Burma has 
turned off or becomes anti-American because of the imposition 
of sanctions there? Or is this modest inconvenience just 
something too peripheral for them?
    Mr. Campbell. And, again, if I could, Congressman, what I 
meant to suggest to you when you were asking about what impact 
it has on the regime itself, the rulers, modest inconvenience.
    I think the recent IMF study, which I would commend to you, 
makes clear that the primary damage done inside the country is 
not through sanctions but through chronic mismanagement 
implemented by the regime. If the country is ever to think 
about a much more thoroughgoing engagement with the world, it 
will not just be political reforms but just profound, deep 
financial/regulatory/government reforms.
    And the truth is, even if sanctions were lifted, the 
business environment is extraordinarily difficult inside the 
country.
    Mr. Flake. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York, Mr. Crowley, is recognized for 
5 minutes.
    Mr. Crowley. Thank you, Mr. Chairman.
    Mr. Secretary, in June, myself and 50 bipartisan Members of 
the House of Representatives sent a letter to the 
administration urging an official United Nations Security 
Council investigation into mass atrocities in Burma. In the 
past, similar investigations have led to the creation of 
international criminal tribunals, for example, on Yugoslavia 
and Rwanda.
    The Burmese junta is a regime that has destroyed over 3,300 
ethnic villages. It has forced hundreds of thousands of people 
to flee their homes and has used rape as a weapon of war 
against innocent women.
    Is our administration open to keeping a U.N. Security 
Council investigation as an option if the Burmese regime does 
not respond to our diplomatic overtures?
    Mr. Campbell. Thank you, Congressman Crowley.
    I do not know enough about this particular letter. I would 
simply say that all options remain open. And I would like to 
consult with my colleagues and get back to you directly.
    And we share your deep concern associated with the steps 
that the government has taken not just in the last several 
years but over decades against its own citizens.
    Mr. Crowley. We will make sure that you get a copy of that 
letter, Mr. Secretary.
    Mr. Campbell. Thank you very much, Congressman.
    Mr. Crowley. Last year, the Burmese passed a new 
constitution through a sham referendum that contained new 
recommendations putting democracy further out of reach for 
Burma, further cementing the military's grip on power.
    The Burmese regime actually claimed that well over 90 
percent of the eligible population voted, even though the 
referendum took place immediately following Cyclone Nargis, 
which hit Burma, and much of the country was under water during 
that time.
    Aung San Suu Kyi's National League for Democracy strongly 
criticized the regime's actions, as did the House of 
Representatives, which passed a resolution condemning that 
referendum.
    Has the Burmese military regime shown any signs that it is 
interested in any way in making any changes to the Constitution 
or interested in a dialogue with Aung San Suu Kyi prior to the 
elections in 2010?
    Mr. Campbell. Thank you very much.
    That is an excellent question, and it is one that we are 
seeking to explore. There has been a flurry of letters and 
communications, I think as you know, in recent days between 
Aung San Suu Kyi, both her supporters and elements of the 
regime. She has had interactions with the chosen interlocutor 
between the government and herself. There have been a variety 
of discussions that have taken place about the upcoming 
elections.
    We share your general, overarching assessment about the 
lack of veracity associated with the referendum. And we have 
major concerns associated with what we know about the 2010 
elections. In the current environment, we are seeking a 
deeper--or at least the beginning of a dialogue between Aung 
San Suu Kyi, members of her party, other elements of the 
opposition, and the government about what precisely they have 
in mind, in terms of staging the 2010 elections overall. And so 
the United States is going to see if we can play at least a 
modest role in encouraging an internal dialogue about the way 
forward.
    But I want to be very clear here. Many of the people 
involved in this have been involved in these sorts of 
interactions for a long period of time. You have to approach 
this with a deep sense of pragmatism and realism and recognize 
that the challenges are just enormous.
    Mr. Crowley. If I could just go back to my first question 
just for a moment, pertaining to the rape of innocent women, we 
continue to see reports that rape of ethnic minority women by 
officials of the military continues in Burma.
    Is the United States Government, our Government, tracking 
and documenting these rapes? And is there more the United 
States can do to stop the state-sanctioned rape within Burma?
    Mr. Campbell. Well, of course, I don't think I need to 
underscore that we deeply deplore such practices.
    On this area of specific tracking and what further can be 
done, I think I just have to ask, Congressman, that I could get 
back to someone in your office, in terms of next steps.
    Mr. Crowley. We will make sure of that.
    I just want to state I am a little bit concerned about the 
fact that you weren't aware of the letter that we sent earlier 
this year. We will make every immediate effort to get that to 
you. But just express for the record, I am a letter concerned 
you weren't aware of that to begin with, that 50 Members of 
Congress had sent that on to the administration.
    Mr. Campbell. Let me take full responsibility for that. But 
let me also just suggest to you that I have been on the job for 
about just over 2\1/2\ months. And, you know, the process of 
confirmation is a more----
    Mr. Crowley. I understand that.
    Mr. Campbell [continuing]. Challenging task than it was in 
recent years. I am working with my staff to get fully up to 
speed. I think it is better for me to acknowledge that I did 
not know it than try to----
    Mr. Crowley. No, I appreciate your honesty. But having 
said, that we will make sure you get the letter.
    Mr. Campbell. I will look at it.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from California, Mr. Royce, is recognized 
for 5 minutes.
    Mr. Royce. Thank you, Mr. Chairman. Just a couple of points 
here on Burma.
    In addition to the systemic rapes, used as a weapon of 
terror there, you have a situation where, after the Cyclone 
Nargis hit, there were 150,000 human beings that perished; and 
the military junta, of course, refused aid from the United 
States for those victims. Those are the same people who were 
still in power there. And one of the reasons some of us have a 
rather jaundiced view of what is likely in terms of any 
empowerment of that leadership is for five reasons having to do 
with national security.
    One is that North Korea uses Burmese ports and airstrips to 
transfer arms and to transfer contraband. And that is why we 
were so concerned about the North Korean freighter that was 
headed toward Burma last summer.
    The second point is that Burma purchases technologies that 
could be used in a nuclear program; and that has gotten a fair 
amount of publicity.
    The third is, one of North Korea's principal arms companies 
has become very active inside of Burma in recent months.
    The fourth is that last year, when the United States worked 
with India to deny a North Korean missile shipment to Iran, 
that plane was transiting through where--through Burma, right?
    And fifth, there are other reports of North Korea assisting 
in building a vast underground tunnel network near the capital 
in a place where some, who have left those premises, indicate 
it has nuclear, they have nuclear intentions there.
    So you know North Korea is well established as a weapons 
proliferator. And I think at the end of the day we saw that a 
reactor in Syria went up without any of us being able to detect 
it. Let's not get surprised again because North Korea may have 
found another partner to deal with.
    But I want to digress here and ask you specifically about a 
case that is coming up that I think is very important, and that 
is the Victor Bout case in Thailand, if I can just shift to 
that for a minute.
    Many members of this committee were very disappointed in 
August when a Thai court ruled that a U.S. extradition request 
for that international arms dealer, Victor Bout, was refused. 
This is an individual--for those of us who have worked in 
Africa or other continents, I mean, he funded both sides of the 
war in Angola. From West Africa to Congo, if you need surface-
to-air missiles, who are you going to call? Victor Bout. If you 
need grenade launchers, if you need automatic weapons, if you 
need missiles, this is your guy.
    And so, at the end of the day, we know this decision is 
being appealed. But having made some calls, I wonder if we 
really did all that we could do with respect to the Thai 
Government in order to get the point across. If he gets out, 
there is going to be bloody carnage somewhere around this 
planet because he is going to be back in business. And this is 
a fellow that has the capability to transfer any type of 
weapon, and I mean any type of weapon. And given what he has 
been able to do, including both sides, Northern Alliance and 
Taliban in Afghanistan, I would not want to see him back in the 
business of transporting this kind of weaponry.
    So are we doing everything we can to make sure that Victor 
Bout does not go free?
    Mr. Secretary.
    Mr. Campbell. Thank you very much, Congressman Royce.
    Let me take the second question first. In every meeting 
that I have been in with the Thai Government, including several 
with Secretary Clinton, this case has been raised; and we are 
pressing it as hard as we possibly can. I think I would just 
say we simply share your overall concerns in this regard.
    And then on your first list of questions, I tried to make 
clear in my opening statement and in what I submitted for the 
record that our biggest concerns were alleged concerns 
associated with U.N. Resolution 1874 and a relationship between 
North Korea and Burma that is growing.
    So I think everything you said there----
    Mr. Royce. If I can just follow up on the President's trip 
to the summit next month in Singapore, he will get a chance to 
make this issue number one with Thai officials.
    Can you make sure he does that?
    Mr. Campbell. I will certainly make sure that this issue is 
raised within the context of his trip to Southeast Asia, yes.
    Mr. Royce. And without objection, Mr. Chairman, I ask that 
the statement by Congressman Souder be included in the record 
for today's hearing.
    Chairman Berman. Mr. Souder's statement, without objection, 
will be entered into the record. And the time of the gentleman 
has expired.
    [The prepared statement of Mr. Souder 
follows:]<greek-l>Royce FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. The gentleman from Georgia, Mr. Scott, is 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And welcome Secretary Campbell. Let me ask you to describe 
and to rank how you perceive that Burma is a national threat, 
national security threat, to the United States.
    Mr. Campbell. It poses several challenges across many 
spheres. The most worrisome is in the context of the issue that 
was just discussed in recent dialogue with Congressman Royce, 
associated with military and potentially other aspects of a 
cooperation between North Korea and Burma. I will say that in 
this venue I can't say much more than that. But there are 
elements of cooperation that were underscored by the chairman 
in his opening statement that causes concerns.
    But beyond that, I think some of the challenges inside 
Burma pose larger concerns to the United States and the 
surrounding region. And we are worried about regional stability 
issues; we are concerned about the moral imperatives associated 
with what is transpiring inside the country. And so I would 
suggest to you simply that many aspects of what is transpiring 
in Burma today pose very real concerns for the United States, 
both directly and indirectly.
    Mr. Scott. And how do you categorize those relationships 
between Burma and Russia, for example? Isn't it true that 
Russia has provided over--training in the nuclear development 
area for over 1,000 scientists and technicians from Burma? 
Where does that lead and how does the United States respond to 
that?
    Mr. Campbell. We think we have seen actions along the lines 
that have been discussed earlier today from North Korea, China, 
Russia, in the arms, in the military, in the nuclear realm that 
raise very real concerns. And, yes, there are a substantial 
number of students studying in Russia at various universities 
topics that are nuclear related, and that is a subject of 
concern.
    Mr. Scott. And we have bilateral talks coming up between 
them and us. Who will handle those for us? Will it be at the 
level of Secretary of State Clinton?
    Mr. Campbell. You mean the upcoming discussions?
    Mr. Scott. Yeah.
    Mr. Campbell. No. They will be at my level.
    Mr. Scott. At your level. And what would be our major 
objectives coming out of those talks?
    Mr. Campbell. Well, I tried to make clear in my testimony 
the things that we seek very clearly in terms of democratic 
reforms, dialogue, respect for human rights. Those remain and 
will continue to animate our policy deliberations going 
forward. I think, in the short term, we would seek to promote a 
dialogue inside the country among the various actors. We would 
like some reassurances concerning some specific issues 
associated with North Korea. And we would like some commitments 
about some humanitarian issues inside the countries--inside the 
country.
    Mr. Scott. And what actions are being taken now to protect 
the human rights of the Burma ethnic minorities, women and 
children? And what is the underbelly of this? What are the 
cultural phenomena and the cause of this treatment?
    Mr. Campbell. I would hate, Congressman, to try to depict 
what is in the mind of the military junta.
    I think the point that has been made earlier, that the 
conditions are indeed deplorable and we need to take steps to 
try to curtail them and to see a restoration of democracy 
inside the country--I mean, those are our overall goals and 
objectives.
    In our earlier--in our early discussions and our 
interactions with our counterparts inside the country, they 
present a picture that is very different from our own 
understanding of what is going on inside the country.
    Mr. Scott. I have 10 seconds. I just want to ask this final 
point.
    Right now, our dealings with Burma are anchored in two 
areas: One, sanctions----
    Chairman Berman. Mr. Scott, your time has expired.
    Mr. Scott. Thank you very much.
    Chairman Berman. Secretary Campbell, thank you very much 
for your testimony.
    And all members of the committee, we are now going to have 
a second panel who has great experience with Burma, and we are 
very pleased to introduce them.
    And thank you, Secretary Campbell. We hope your efforts 
here produce success.
    Our first witness in the second panel will be Tom--and we 
invite them to come up now--Tom Malinowski, the Washington 
advocacy director for Human Rights Watch. In this role he is 
responsible for the organization's overall advocacy efforts 
with the United States Government.
    Prior to joining Human Rights Watch, Mr. Malinowski was a 
special assistant to President Bill Clinton and senior director 
for foreign policy speechwriting at the National Security 
Council.
    From 1994 to 1998, Mr. Malinowski was a speechwriter for 
Secretaries of State Christopher and Albright and a member of 
the State Department Policy Planning Staff.
    Dr. Chris Beyrer is professor of epidemiology, 
international health, and health behavior and society at the 
Johns Hopkins Bloomberg School of Public Health. He is also the 
founder and director of the Center for Public Health and Human 
Rights at Johns Hopkins.
    Dr. Beyrer has been working on health and human rights 
issues related to Burma since 1993. His research focuses on 
quantitative measures of human rights impacts in conjunction 
with public health intervention research. He currently has a 
HIV/AIDS program or training activities in Burma, Thailand, 
China, India, Russia and parts of Africa.
    Dr. Beyrer has worked extensively inside Burma and on the 
Thai-Burma border with groups such as the National League for 
Democracy, the Mae Tao Clinic and Global Health Access Program.
    Mr. Aung Din is the co-founder and executive director of 
the U.S. Campaign for Burma. Aung Din served over 4 years 
behind bars as a political prisoner in Burma after organizing 
and leading the country's nationwide prodemocracy uprising in 
1998. For that he was severely tortured and spent 2 years in 
the notorious Insein Prison in Rangoon.
    In 1989, Amnesty International adopted Aung Din as a 
prisoner of conscience and campaigned for his release, and he 
was released in 1993.
    In addition to his work with the Burmese dissidents in 
exile through the U.S. Campaign for Burma, he also serves as 
the country representative of the Thai/Burma border-based 
Assistance Association for Political Prisoners-Burma.
    So we thank all of you very much for coming. Your full 
testimony will be included in the record. We will be very 
interested in hearing the points you would like to make during 
your testimony.
    Mr. Malinowski, why don't you start?

   STATEMENT OF MR. TOM MALINOWSKI, ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Mr. Malinowski. Thank you. Thank you, Mr. Chairman. Thank 
you for having us today.
    I will start with the simple and obvious point that Burma 
poses an extraordinarily difficult problem. But perhaps 
paradoxically, just because it is a difficult problem doesn't 
necessarily make it a particularly complicated problem in the 
sense that we know the root cause of the multiple maladies that 
afflict this country: The political repression, the violence, 
the underdevelopment, the poverty, the disease that is rooted 
in the mismanagement and oppression of this military junta that 
has clung to power for now almost five decades. And we can 
imagine perhaps more readily than in a lot of other 
authoritarian countries around the world the way out of this 
crisis.
    The way out is a political process that would include both 
the military and the democratic opposition of the country.
    Burma is blessed, in fact, with an extraordinary political 
opposition movement involving the National League for 
Democracy, the monks, other dissident groups, ethnic 
minorities, very well organized, very sophisticated, committed 
to nonviolence and democracy. That is a source of hope for the 
country's future.
    To understand Burma, I think one needs to understand this 
basic political fact, and that is that there are two forces, 
two political forces, in the country that matter fundamentally. 
There is the military, which has all of the power, but none of 
the political legitimacy. And then there is this ``opposition 
movement,'' broadly defined, that has none of the power, but 
all of the political legitimacy. And the only solution, the 
only realistic solution, the only solution that could possibly 
be stable over time is one in which the power and the 
legitimacy come together.
    There is no solution in which the military is not going to 
play an important role, nor would it be realistic to imagine a 
way forward that just assumes the opposition and the people of 
the country will go away and stop protesting for their rights 
and for a different kind of Burma. Both sides have to be part 
of the answer.
    Now, in terms of the administration's new strategy, I think 
it is appropriate, it is wise, I agree with it, and I think it 
recognizes that fundamental reality. It is a realistic 
strategy, as Dr. Campbell stressed several times today.
    As he pointed out, sanctions will remain and can even be 
enhanced if progress is not made. Humanitarian aid will be 
expanded; that is, I think, appropriate and noncontroversial. 
This is aid directly to the Burmese people, not to the 
government.
    The only somewhat new aspect of the policy is the greater 
willingness to have high-level dialogue and engagement with the 
Burmese leadership. Again, as someone who has personally taken 
a very hard line toward this country over many years, I think 
that is appropriate. So, long as it is done in a principled and 
disciplined way, at the very least it takes off the table this 
pernicious notion that the United States is somehow responsible 
for Burma's isolation, which is not true; and it places the 
ball firmly in the Burmese junta's court. It is now up to them 
to respond to the gestures that the administration has made.
    The strategy is realistic, I think, in part because it 
doesn't place its hopes in the elections that the Burmese 
Government is staging in 2010 or in the new constitution that 
it has forced on the people of the country. Dr. Campbell spoke 
to both of those issues.
    And I think it is realistic because the administration 
considered, but rejected the notion that is out there in some 
circles that a lifting of sanctions against Burma will somehow 
spark the kind of economic growth and development that we have 
seen in places like China and Vietnam, which then might, in 
turn, over time, lead to political change.
    In fact, if sanctions were lifted, essentially the only new 
investment I think Burma would see would be in the extractive 
sectors, in oil, gas, gems, timber. That kind of development 
would not transfer intellectual capital or create employment or 
lead to positive change inside the country. It would probably 
accelerate Burma's transformation into a country like the 
Democratic Republic of the Congo where foreign countries 
compete to pull stuff out of the ground in a way that corrupts 
and entrenches the local authority. So I think that was a very 
sound judgment that they made.
    Now, what happens next? We have a testing period for the 
next few months in which the administration is going to talk to 
this regime and see what they are willing to do.
    Are they going to be willing to allow the National League 
for Democracy to function more normally as a political party?
    Are they going to be willing to have a process in which 
they discuss substantive issues relating to the country's 
future with the political opposition?
    Are they going to release political prisoners?
    Are they going to change the manner in which they are going 
to organize these elections next year so that there is some 
chance for a vote that reflects the will of the Burmese people?
    Are they going to pull back from these attacks on ethnic 
minority groups that have created such a humanitarian disaster?
    Will they even be willing to take small steps in those 
directions to build our confidence and the confidence of the 
opposition?
    I think there is a possibility that some of those things 
will happen. I am also skeptical because I think this regime, 
over the years, has shown that it is expert at time management. 
They are good at playing for time.
    I think the more likely explanation is that they would like 
to use the dialogue to give themselves the time to focus on 
their internal political consolidation. And so the 
administration needs to be very disciplined about this and they 
need to have a time-bound approach. And I believe they do need 
to be willing to enhance, strengthen, adjust the implementation 
of the sanctions if, over a reasonable period of time, progress 
isn't made.
    There are some references to the JADE Act earlier in the 
session. I would stress that the most important part of the 
JADE Act, Mr. Chairman, is a part that almost never gets 
mentioned, and it has nothing to do with JADE. It is a 
provision that essentially sends the Patriot Act banking 
sanctions authority to Burma, allowing the United States 
Treasury to deny foreign banks access to the U.S. financial 
system if those banks hold the accounts of targeted members of 
the Burmese junta.
    That is in, effect, the nuclear option of sanctions. It is 
the option that was employed famously in the Banco Delta Asia 
case with North Korea to some effect. And it is a form of 
sanction that does not require the cooperation of other 
countries, given the profoundly important role our banking 
system still plays in the global economy. And it would be a 
way, should the administration choose to use it, to target the 
most important part of the Burmese junta's treasure, the 
earnings that it receives through the export of natural gas to 
countries like Thailand and China.
    That is within our power to do; and I think that option 
needs to remain on the table should the dialogue not produce 
progress, just as the option of removing sanctions should be on 
the table should they produce progress. So I think we have to 
be realistic.
    At the same time, realism should not equal resignation. 
Regimes like this can be very durable, but they do not last 
forever when they face such sustained pressure both from within 
and without. There will be a moment when change comes to Burma. 
I would predict that a year before that happens, none of the 
experts will be predicting it; and a year after it happens, 
they will all be competing to explain why it was inevitable. 
And I think our role--although the greatest part in this drama 
will be played by the Burmese people, our role is to use all 
the tools at our disposal to bring that day just a little bit 
sooner.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Malinowski 
follows:]<greek-l>Tom Malinowski deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Dr. Beyrer.

      STATEMENT OF CHRIS BEYRER, M.D., MPH, PROFESSOR OF 
 EPIDEMIOLOGY, INTERNATIONAL HEALTH, AND HEALTH, BEHAVIOR, AND 
    SOCIETY, JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH

    Dr. Beyrer. Thank you very much, Mr. Chairman and Ms. Ros-
Lehtinen. And thank you for your leadership on the Burma issue.
    I would like to speak about some health and human rights 
issues, in particular address some of the issues relating to 
the attacks on ethnic nationalities which we have heard some of 
the other speakers address, because I think that this is a very 
important part of the junta's planning and preparations for 
2010, and to speak specifically about some of the attacks in 
ethnic areas.
    Of course, in July and August of this year, the junta moved 
against Shan civilians, driving some 10,000 villagers into 
forced displacements. And I think in the Shan areas these kinds 
of mass atrocities are not new. They have been documented by 
our group, collaborative group, from 2006 and 2007.
    Just to give you a feel for this, in IDP areas in the Shan 
State, in a population-based assessment of 2,900 households, we 
found that more than a quarter of all Shan households have been 
forcibly displaced in the last year and 24 percent had had a 
family member taken for forced labor. That is an 
extraordinarily high rate, so that really is a widespread use 
of that abuse.
    There also has been international concern about the 
Rohingyas in western Burma and increasing concern recently 
about the ongoing food and security in Shan State. The attacks, 
of course, in Kokang in Northern Shan State drove 37,000 new 
refugees across the border into China, and that raised concerns 
about regional security, but also elicited an unusual rebuke 
from the Chinese authorities.
    I think, taken together, this pattern of attacks which--of 
course, we are all concerned about the potential expanding 
against the Kachins; the Kachin National Organization has 
rejected both the referendum and the offer to become a border 
patrol force--led China to, reports of China establishing three 
refugee camps along that border in expectation of refugee 
flows. Taken together, what this says is that the junta's 
policies now are creating new humanitarian emergencies in this 
current campaign for extended control in ethnic areas.
    But one of the things I want to highlight is that the 
ethnic nationalities, who are going to be such important 
partners in the democratic Burma to come, are not just victims 
of this regime. The Mae Tao Clinic, a partner that we have been 
working with on the border, that has had U.S. support, served 
over 68,000 people last year. That is 95,000 clinic visits. 
More than half of those people came from Burma. They are 
serving Burmese people; 78 percent of all the malaria cases 
they treated were from Burma, 85 percent, of eye surgery. So 
while they are serving populations in Thailand, the Burmese 
people are voting with their feet and going where they can find 
health care.
    Let me give you another example of infectious disease, 
another area that we have been very involved with over the 
years. There was an outbreak of a flu-like illness in eastern 
Burma just a few weeks ago, and by October there were over--
October 1st, about 450 cases. It was not clear whether this was 
avian influenza, H1N1, which are both, of course, major 
concerns in the region or if this was seasonable influenza.
    The ethnic medical teams that are working inside Burma in 
these IDP areas set up an emergency response system. They 
started a health campaign, they did disease surveillance, they 
did an outbreak investigation, they established a treatment and 
care program, and importantly, they got specimens from cases of 
flu out of those areas across the border to Thailand.
    They were evaluated in Thai labs. All the case specimens 
that they were able to evaluate turned out to be seasonal 
influenza, so that was good news. And so far, the case fatality 
rate has been quite low.
    But I bring that example up to say that these groups really 
have capacity, they have agency, they actually are responding 
to the doctrine of responsibility to protect, despite the 
international community's reluctance in some ways to embrace 
that.
    And I would highlight that a recent, very good report from 
Refugees International highlighted these aspects of this 
assistance and also pointed out that the junta continues to 
limit international access to these areas and to limit 
international humanitarian assistance. But these ethnic groups 
really are able to do a tremendous amount.
    I just want to say a little bit about the situation in 
central and urban Burman areas, because the situation there 
also is really dire. And here, Tom was pointing out the 
treasure that they have amassed in foreign exchange reserves is 
not being used for the health and well-being of the Burmese 
people.
    It is true that Burma, the people of Burma are incredibly 
impoverished. The junta, of course, is not. And just to give 
you a feel for this, their estimated reserves in Singapore 
alone are over $4 billion with the IMF, but they are spending 
about 70 cents per year per person on health care--the national 
AIDS program budget last year, $200,000 for the national AIDS 
program for this entire country of 52 million people.
    That is a crime. And I think one thing that the U.S. could 
really be calling for and increasingly speaking to is that if 
we are going to expand humanitarian assistance in this country, 
the junta should be asked to kick in some of its reserves.
    The same thing is true in the Cyclone Nargis response 
areas. So, for example, the best estimate we have is that they 
expended about $45 million in total on cyclone relief since the 
cyclone, and they have built about 10,000 houses. Now, that is 
important, but the Burmese citizens alone are estimated by the 
U.N. to have built 209,000 houses. And at this point, 18 months 
out from the cyclone, we still have something like 130,000 
families living in temporary and inadequate housing. And that 
accounts to about 450,000 people.
    So they have done really remarkably little with their 
treasure.
    So what can the U.S. do in this setting where there clearly 
are indigenous groups within the country working and trying, 
but the junta has expended so little and its very policies, of 
course, are creating new humanitarian emergencies? Well, I 
think there are several things. I certainly support and concur 
with Tom that expanding humanitarian assistance both inside the 
country and through the ethnic national health programs is the 
right thing to do and plays potentially, particularly for the 
ethnics, a very important role in expanding their capacity to 
participate in the Burma we all hope to see.
    I think that continuing to observe political pressure 
toward democracy and freedom, including the implementation and 
use of the sanctions policy, as Secretary Campbell suggested, 
really is important. In his statement at the Webb hearings, he 
also highlighted the need for tripartite dialogue; and that 
dialogue, of course, includes the ethnics, and I think that 
that is absolutely essential.
    I would finally say two other things. One is that Congress 
can continue to press the administration on the arms embargo. I 
think one of the members raised that earlier. And an 
international arms embargo against this regime, particularly 
while they continue these attacks on ethnic civilians and 
villages, seems to me critically important. And also that the 
U.S. could support the investigation of crimes against humanity 
and that referral to the U.N. Security Council.
    Whatever happens in the dialogue to come, the crimes that 
have been committed and the continued impunity of this junta 
remain a real obstacle to national reconciliation; and I think 
that investigation of those crimes remains an important part of 
reconciliation for the future.
    Thank you.
    [The prepared statement of Dr. Beyrer 
follows:]<greek-l>Chris Beyrer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Mr. Aung Din.

 STATEMENT OF MR. AUNG DIN, EXECUTIVE DIRECTOR, U.S. CAMPAIGN 
                           FOR BURMA

    Mr. Din. Mr. Chairman, Congresswoman Ros-Lehtinen, thank 
you very much for holding this hearing today and also thank you 
very much for inviting me to speak here. And as you suggested, 
I want to submit my testimony for the record and I am hear to 
summarize my statement.
    As I speak here today, the military regime of Burma has 
been carrying out two major campaigns, targeting both democracy 
activists in the mainland and the ethnic minorities in the 
border areas, both of whom present obstacles to the permanent 
military dictatorship under a sham constitution and through a 
showcase election in 2010.
    Democracy forces led by the National League for Democracy 
party and ethnic minorities have refused to accept this 
constitution or support the 2010 elections. During September 
and October, over 100 activists were arrested. The number of 
political prisoners, as of today, stands at least 2,119 
according to the Thai/Burma border-based Assistance Association 
for Political Prisoners, and among that, 244 are Buddhist 
monks.
    These political prisoners went through painful and 
torturous interrogations for days before they were sent to the 
Summary Courts. After a brief and unjust trial, they were given 
lengthy sentences, in some cases up to 104 years, and then sent 
to remote prisons, where their families could not visit due to 
the long distance, difficult travel and heavy expenses. And 
they are put in an 8-foot by 12-foot cell, three to five person 
together, allowed only 30 minutes per day to go out from the 
cell for bathing, cleaning and walking.
    The quality of food provided in prison is much worse than 
food for pigs. Medical treatment is almost nonexistent, and 
prisoners have to rely on their families to provide the 
medicine they need.
    And physical punishment such as beating, kicking, punching, 
caning and crawling on the ground filled with sharp stones, 
standing at the door with hands cuffed for a long time, as well 
as being put in a pitch-black cell for many days and denying 
family visits are common for all political prisoners in Burma. 
At least 138 activists died in the prison due to the torture, 
mistreatment and lack of medical care. Currently, approximately 
125 political prisoners, mostly women and elderly, are 
seriously ailing and need emergency treatment.
    I know their struggle and their suffering very well because 
I was one of them. I was in prison for over 4 years from 1989 
to 1993.
    In some cases the regime attacks against democracy 
activists are fatal. Earlier this month on October 8, U Kyawt 
Maung, 56 years old, was beaten to death by two regime 
officers. U Kyawt Maung went to North Okkalapa Police Station 
to find out the situation of his son Thet Oo Maung, a ninth 
grade student activist arrested the day before for his 
participation in the Free Daw Aung San Suu Kyi Campaign. U 
Kyawt Maung was handcuffed and severely beaten by Police 
Private Pann Thee and local official Win Cho at an intersection 
near the police station. They left him in a pool of his own 
blood at the scene after the attack and onlookers rushed him to 
the hospital where he was pronounced dead.
    In May, when Daw Aung San Suu Kyi's 6-year house arrest was 
about to be complete, the regime sent her to Insein Prison to 
stand trial for the crime of being a victim of an intrusion by 
an American citizen. After nearly 3 months of a showcase trial, 
the regime extended her detention another 18 months to ensure 
she is unable to influence their elections in 2010. In the next 
3 days, on October 24, her time in detention will reach 14 
years.
    Now, let me talk about the ethnic minorities in here. Burma 
belongs not only to the Burman majority, but also to all major 
ethnic nationalities--Shan, Kachin, Karen, Karenni, Mon, 
Rakhine and Chin--whose voluntary participation is very 
important to the unity of a Federal Union of Burma. However, 
Burma's military leaders think of themselves as rulers and the 
ethnic groups as their subordinates or subjects. Those who 
refuse to accept their authority are enslaved, tortured, raped, 
killed or driven out.
    The regime's use of rape as a weapon of war against ethnic 
women and girls is widespread, ongoing and well documented. In 
his latest report to the U.N. Security Council on Resolution 
1820, Women, Peace and Security, dated July 15, 2009, 
Secretary-General Ban Ki-moon reported, and I quote:

        ``In Burma recent concern has been expressed at 
        discrimination against a minority Muslim population of 
        Northern Rakhine State and their vulnerability to 
        sexual violence, as well as the high prevalence of 
        sexual violence perpetrated against rural women from 
        the Shan, Mon, Karen, Palaung and Chin ethnic groups by 
        members of the armed forces and at the apparent 
        impunity of the perpetrators.''<greek-l> unquote. deg.

    In April of this year, the regime announced its plan to 
disband and disarm ethnic cease-fire groups which command about 
50,000 soldiers. The regime instructed them to reduce their 
troops to the lowest level, about 7,000, and then transfer them 
under the authority of the regime. Then the regime will mix 
them with Burmese soldiers and form a new 
<greek-l>`` deg.Border Guard Force<greek-l>'' deg. under the 
direct command of the Burmese military. The regime has 
instructed all groups to implement this Border Guard plan by 
the end of October and start to prepare to participate in the 
2010 election. The regime offered no political concessions or 
alternatives. That is why almost all of the major ethnic groups 
have refused to comply.
    In late August, the regime started to attack the smallest 
group, Kokang, and defeated it in a matter of a week, forcing 
nearly 40,000 civilians to flee to China as refugees and sent a 
message to other cease-fire groups to choose one of the two 
options: <greek-l>`` deg.Subordinate to the regime or be 
defeated.<greek-l>'' deg. Currently, about 100,000 soldiers of 
the regime with heavy artilleries, tanks, cannons and fighter 
jets are deployed in these areas, pressuring the remaining 
ethnic cease-fire groups. As major ethnic cease-fire groups, 
combined together command about 40,000 armed forces, have 
refused to obey the order, a full-scale escalation of war 
between the regime and ethnic groups is possible in the near 
future, further destabilizing Burma and the region.
    Now is the turning point not only for Burma but also for 
the international community. The right policy and effective 
action by the international community may be able to stop the 
bloodshed and the regime's killing spree in Burma. Over the 
years, under the watchful eyes of the international community, 
the regime has destroyed over 3,300 villages, driven out over 2 
million people to neighboring countries, forced over 500,000 to 
hide in jungles and mountains as internally displaced persons, 
employed all citizens as forced or slave laborers, and 
recruited 90,000 child soldiers into its armed forces, 
exploited from drug businesses, money laundering and human 
trafficking, and failed to save the lives of millions of 
citizens who were devastated by natural disaster such as 
Cyclone Nargis and treatable infectious diseases. Therefore, 
the imposition of strong and comprehensive sanctions on this 
brutal military regime is perfectly justifiable, legitimate, 
meaningful and necessary.
    And I agree that imposing sanctions alone could not produce 
the intended results. Sanctions should be reinforced with 
serious and high-level engagement.
    The U.S. engagement with the regime should start from 
ground zero. During the talk, if the regime makes positive 
gestures, such as ceasing all attacks and atrocities against 
civilians and ethnic minorities, releasing Daw Aung San Suu Kyi 
and all political prisoners, beginning a genuine and sustained 
dialogue with opposition to review and revise the constitution, 
I agree that the United States should respond positively by 
easing some of the sanctions. But if the regime continues 
arresting democracy activists and attacking ethnic minorities, 
the United States must respond with tightening sanctions and 
organizing action at the U.N. Security Council, such as the 
global arms embargo and establishment of a commission of 
inquiry to investigate crimes against humanity in Burma.
    In conclusion, I support the new U.S. policy on Burma, 
which includes maintaining sanctions and directly engaging with 
the region, as well as increasing humanitarian assistance while 
working closely with neighboring countries to help procure 
unified coordination and action. I believe this is the right 
policy, but this must be carried out effectively with caution, 
transparency, a sense or urgency, a results-oriented mind and 
readiness to respond appropriately.
    Thank you very much.
    [The prepared statement of Mr. Din follows:]<greek-l>Aung 
Din deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much.
    Thank all of you very much. Very informative and useful 
testimony.
    I will recognize myself for some questions. I want to track 
from a lot--sort of pull out from a number of the different 
things all of you said and what was said earlier, and tell me 
if my reasoning is right.
    We have heard--certain members of the committee have quite 
forcefully criticized this administration's decision to, while 
maintaining the sanctions, pursue engagement on moral grounds 
and on grounds that it can't possibly achieve its objective. I 
take it from what I have heard today--and tell me if this is a 
fair conclusion--that Aung San Suu Kyi, the National League of 
Democracy in Burma, representatives of many of the ethnic 
minorities and a number of the international human rights 
organizations that follow this issue think the administration 
is making the right decision, not because it is guaranteed to 
work, but because it is worth trying this approach before we 
pursue what more we can do to maximize the pressure on the 
military junta.
    Is that an unfair conclusion?
    Mr. Malinowski. No. I mean, I would say that is exactly 
right so as long as the dialogue or engagement or whatever you 
want to call it continues to be backed by strong pressure and 
so as long as the purpose of that engagement is to stimulate an 
internal dialogue between the Burmese Government and its 
people.
    Ultimately, the solution here is not going to be worked out 
by the U.S. State Department talking to a senior Burmese 
leader; it is going to be an internal dialogue. And I think on 
both of those counts I was satisfied by Dr. Campbell's 
testimony; he made both those points, I think, very strongly.
    And so, with those caveats, I think the policy is one that 
I would strongly support.
    Chairman Berman. Anything else to add?
    Go ahead.
    Dr. Beyrer. I would just say that I think we have heard 
very clearly from the ethnic groups and from the NLD that that 
dialogue, that what people really are hoping to see is a 
tripartite dialogue. So that includes discussions with the 
military, with the democratic forces and also with the ethnic 
leaderships; and that that is really key.
    And I think Tom just put it exactly right, that the real 
discussion that needs to happen is within Burma and it needs to 
be a tripartite discussion.
    Mr. Din. Mr. Chairman, even though I agree with the U.S. 
new policy on Burma, I will not blame those who have a concern 
about the engagement because we have seen how the Burmese 
military regime has used----
    Chairman Berman. Say that one more time.
    Mr. Din. In the past, Burmese military junta said that----
    Chairman Berman. The junta manipulates the engagement and 
drags it on and makes it a----
    Mr. Din. Yes. Consider the cooperation with the United 
Nations as a cornerstone of the foreign policy of the Burmese 
regime. So that is why they invited the special--the U.N. 
Special Envoy many times just to buy time and mislead the 
world.
    Chairman Berman. So should I amend my sort of 
generalization to say a time-limited, focused engagement 
focused on the sort of trilateral approach?
    Mr. Din. That is our concern. The U.S. engagement should be 
within the reasonable time frame, with the clear benchmarks, 
and with transparency.
    Chairman Berman. Thank you.
    Now, on the sanction--I mean, basically I take it there is 
a U.N. Security Council resolution that essentially calls for a 
boycott of nations and having arms dealings with Burma.
    Mr. Malinowski. No there is no Security Council resolution.
    Chairman Berman. There is some kind of multilateral arms 
effort to have an arms embargo.
    Mr. Malinowski. There is an effort. The Security Council 
has never adopted sanctions on Burma because of the Chinese and 
Russian veto problem.
    Chairman Berman. So the U.S. is a participant in this arms 
embargo? It is basically, pardon the expression, a ``coalition 
of the willing''?
    Mr. Malinowski. Right. Including the EU and some other 
countries, but it is not universal.
    Chairman Berman. You made a point. One unilateral sanction. 
We have seen it. To some extent it goes a little bit beyond a 
modest inconvenience.
    One unilateral sanction that we could impose and that is 
authorized by the ranking member in Tom Lantos' legislation is 
this sanction on banks who deal with the targeted regime 
leaders.
    I take it we have not really moved to impose that sanction 
yet.
    Mr. Malinowski. It hasn't been fully implemented. The 
Treasury Department has named a number of Burmese individuals, 
members of the leadership, and business entities related to the 
state.
    Chairman Berman. They have named some targets?
    Mr. Malinowski. They have named some targets which means 
that banks cannot handle international transactions by those 
targets.
    However, they have not employed the additional tool that 
the legislation provides to actually deny the banks themselves 
access to the U.S. financial system, should they be holding, 
for example, the several-billion-dollar foreign reserve funds 
that the Burmese Government has.
    Chairman Berman. And is it your suggestion that that be 
done immediately or that you provide this sort of time-limited 
period to see if there are gains--specific, meaningful gains 
produced by the engagement.
    Mr. Malinowski. I would be willing to give this process 
some time, but not very much time. And I think I would also be 
using the time between now and then to work on the intelligence 
side. You know, that kind of sanction, I would almost not call 
it a sanction; I would call it a law enforcement measure. It 
requires following the money, it requires knowing where they 
bank, how they move the money around.
    Intensive intelligence gathering is required, and I would 
use this period to maximize our ability to implement that 
effectively if we need to.
    Chairman Berman. My last question, and maybe it is more to 
Dr. Beyrer and Aung Din. You have talked about--I mean there 
are so many causes of concern here, but a great deal of 
attention has been focused on the persecution of ethnic 
minorities. But I take it, it would be wrong to view this as an 
effort by an ethnic majority to persecute ethnic minorities. 
This is an effort by relatively small, in terms of population, 
junta rulers who are pursuing these policies of ethnic 
persecution.
    Is there an underlying kind of a thing that creates--I 
don't know if I am articulating this right. Is there some 
fundamental aspect of this that is about ethnicity, that means 
that even within a change there will still be a change in the 
nature of rulership, a move toward a more open and democratic 
process? We will still have this problem?
    Dr. Beyrer. Well, maybe Aung Din wants to answer as well.
    Let me just say that I think the best piece of evidence we 
have that that is not the case is the 1990 elections where, in 
fact, you know, the predictions that people would vote along 
ethnic lines really did not happen and the NLD won an 
overwhelming popular vote.
    Chairman Berman. Even though the NLD was Burman-led, pardon 
the expression.
    Dr. Beyrer. Well, Aung San Suu Kyi herself is Burman, but 
there certainly were members of other ethnic nationalities in 
the leadership; and there were affiliated ethnic parties like 
the Shan Nationalities League for Democracy which did very well 
in Shan State that were very supportive and shared policy 
platforms.
    I think actually, if anything, one could say that this is 
another example of the junta's attempt at political control, 
has been to try and isolate the ethnics to insist that each 
ethnic group negotiate with them alone. All the negotiations 
around the current attacks and this attempt to get them to 
disarm and become border patrol forces essentially of the junta 
are being done ethnic group by ethnic group. They deliberately 
do not want people to speak with a unified voice.
    Chairman Berman. We didn't put me on the clock, and I am 
sure my time is more than expired.
    Did you have anything on this particular issue you wanted 
to add?
    Mr. Din. Yes, if I may.
    Mr. Chairman, one important thing to remember is that these 
ethnic minorities, they actually are about 40 percent of the 
total population and live in 60 percent of the country's total 
land area. They are an important part of our country.
    Chairman Berman. It is not just geographic isolation?
    Mr. Din. They are concentrated within the country, but they 
are totally 40 percent of the population and they are living in 
60 percent of the total land area. And they are actually----
    Chairman Berman. Is there intermarriage?
    Mr. Din. Yes. We have such kind of marriages. But my point 
is that voluntary participation in the country is quite 
important for the making of the Union of Burma.
    One of the reasons for holding the power by the regime is 
to prevent disintegration of the country. But actually the way 
they are doing it is actually forcing the ethnic minorities to 
leave.
    Our expectation is better for the Union of Burma. In 1991, 
the National League for Democracy party won and all ethnic 
nationalities supported it because they believe that NLD will 
solve the problems among the ethnic nationalities. But the 
regime refuses to acknowledge the election result and use force 
to solidify the power. This is why we are trying to prevent the 
atrocities.
    Chairman Berman. Thank you. Ranking member for as much time 
as she may consume.
    Ms. Ros-Lehtinen. No problem. Thank you so much, Mr. 
Chairman.
    Mr. Malinowski--and I am not directing my comments to you 
personally, as an individual--I don't doubt your devotion to 
the cause; but I have heard that you are being considered by 
the Obama administration as having possibly a position 
regarding the JADE legislation. And I don't know if that is 
true or not, but I wish you much success. I hope that you get 
it because you are an expert in this field.
    But I wanted to speak about human rights organizations in 
general in the United States in dealing with this 
administration.
    It is so easy to be co-opted in this town. Everyone wants 
to be invited to White House parties. You want to be invited by 
the Secretary of State to briefings and seminars. And you want 
to go to the picnics, and no one wants to be the skunk at the 
picnics.
    But I believe that many human rights organizations have 
lost their voice. They are no longer standing up for the people 
who are oppressed, who are murdered, who are raped. We have an 
official who says he will get back to us on the issue of raping 
women. And every time when I come to the committee and I see 
that one of the witnesses is going to represent a human rights 
organization, I say to the staff, Oh, gosh, we need another 
administration witness, because it has gotten to the point 
where human rights organizations are mouthing the same 
platitudes that administration witnesses mouth.
    And as I started--in the beginning of this hearing, I said 
Winston Churchill warned there is no greater mistake than to 
suppose that platitudes, smooth words and timid policies offer 
a path to safety. This is a get-along and go-along town; we all 
know that. And I hope that these groups find their voices 
again, stand up for human rights and not ``ehhhh.''
    This New York Times op-ed, published just yesterday, Robert 
Bernstein--I don't know him, but he said, ``As the founder of 
Human Rights Watch,'' your organization, ``its active chairman 
for 20 years and now founding chairman emeritus, I must do 
something that I never anticipated. I must publicly join the 
group's critics. Human Rights Watch had as its original mission 
to pry open closed societies, advocate basic freedoms''--can 
you imagine--``and support dissenters.''
    He goes on to say, ``When I stepped aside in 1998, Human 
Rights Watch was active in 70 countries, most of them closed 
societies. Now the organization, with increasing frequency, 
casts aside its important distinction between open and closed 
societies.''
    And he concludes by saying--by advocating that Human Rights 
Watch return to ``its founding mission and the spirit of 
humility that animated it.'' And he says if it fails to do 
that, ``its credibility will be seriously undermined and its 
important role in the world significantly diminished.''
    Now, Mr. Bernstein was talking about how misguided the 
Human Rights Watch report was on the Goldstone report. He says 
that in recent years Human Rights Watch has written far more 
condemnation of Israel for violation of international law than 
any other country in the region, which is just flabbergasting.
    But although he was talking about the Middle East, I think 
it is true about human rights organizations in this 
administration, and I hope that you continue to get invited to 
every briefing and party.
    And, Mr. Din, when you go to those parties don't drink the 
Kool-Aid. You are the--4 years behind bars as a political 
prisoner in Burma, you led your country in a nationwide 
prodemocracy uprising in August 1988, a prisoner of conscience; 
you are now the co-founder of the U.S. Campaign for Burma.
    When all of the other groups get co-opted please remain 
strong, please remain a voice for the dissidents and not a 
voice for the oppressors. And as you answered the chairman's 
questions, it is so true when you say, well, human rights 
groups in Burma love the engagement policy.
    Chairman Berman. That is a misquote.
    Ms. Ros-Lehtinen. I am trying to make a point. You 
understand.
    How many human rights groups do you want in Cuba who say 
whatever you want them to say, in Libya, in Sudan, in--well, I 
don't think North Korea even cares to even have bogus human 
rights groups--but in Gaza. It is so easy to find groups that 
will say, ``This is what we believe in.''
    I don't know what the Burmese human rights groups want. I 
am not putting my voice to theirs. But I am saying we can each 
get groups to support our theories.
    And I don't know about what goes on there, but I do care 
about our U.S.-based human rights groups. And I am increasingly 
worried that in an effort to be the get-along, go-along gang, 
we get co-opted. And no one wants to say the hard things. We 
all want to say, Everything is working, everything is great, 
but----
    So I have some questions. I don't need to ask them. All I 
am saying to our witnesses is, Find your voice again and stand 
up for the people who are being murdered, for the women who are 
being raped. You will get invited to the parties again, and if 
you don't, you will go to sleep at night thinking you did the 
right thing.
    So that is just my plea for future human rights 
organizations who come to our committee. I think of them as 
more and more administration witnesses. I want them to find 
their voices again. Thank you, Mr. Chairman.
    Mr. Din. Thank you, Madam Ros-Lehtinen. Thank you very 
much.
    Chairman Berman. I think it is appropriate for Mr. 
Malinowski to have a chance to respond.
    Mr. Malinowski. Thank you. Thank you, Mr. Chairman. First 
of all, I think I should say that although I have been honored 
to serve my country and government in the past, to my 
knowledge, I am not a candidate for any position in this 
administration. And for the record, I hate Kool-Aid, ever since 
I was forced to drink it in camp as a kid, literally and 
figuratively. I think that said, the dilemma that you put on 
the table is a very real one for people who do the kind of work 
that I do. It is not just a dilemma in Obama's Washington; it 
was a dilemma in President Bush's Washington. My relationship 
with the Bush administration was very complicated. On some days 
I was denouncing him for what I thought were very, very 
wrongheaded policies, including torture.
    On other days, I was sitting with my friend Elliott Abrams 
talking about how best to implement what I thought was a very 
commendable approach early on in the Bush administration toward 
Egypt and other dictatorships in the Arab world. It is 
complicated. In terms of the Obama administration, you know, I 
was on CNN this weekend very severely criticizing their 
approach to China, where I think human rights has fallen by the 
wayside in the relationship. Hopefully, that will be corrected 
when the President goes. I have been extremely critical 
publicly of comments made by President Obama's special envoy to 
Sudan, General Gration, who I know and like, but have very 
seriously criticized in public. So I don't think I have shied 
away or my colleagues in the human rights community have shied 
away. I also think they are doing some things right. And my 
genuine opinion at this stage, with the caveats that I put on 
the table, is that the approach toward Burma is appropriately 
balanced.
    And I am quite capable of changing my mind if the evidence 
leads me in that direction even if I don't get invited 
somewhere. So I can assure you of that. In terms of the other 
issue that you mentioned with Human Rights Watch, we worked on 
70 countries, mostly closed societies, you know, 10, 20 years 
ago. Today we work on 90 countries, mostly closed societies. I 
am here to talk to you about one of the most ruthless 
dictatorships in the world. We are the leading source of 
information, I think, in the human rights community about human 
rights violations in Iran, in Saudi Arabia, in Egypt, in Libya. 
We put out far more reports on other countries in the Arab 
world than we do on Israel. We are about to put out a very hard 
hitting report on increased abuses by the Raul Castro regime in 
Cuba since his ascension in the last couple of years.
    So, you know, there will be times when we disagree about 
some of those things. And I think that is fine. And I would 
love a chance to come in and talk to you about some of the 
Middle Eastern issues that have been raised. But I can assure 
you our voice is very strong and it is appropriately critical 
of even of an administration that we do want to get along with 
on some issues. So thank you for the chance to respond.
    Ms. Ros-Lehtinen. Thank you so much. Thank you. I look 
forward to the meeting.
    Chairman Berman. Ms. Woolsey.
    Ms. Woolsey. Well, thank you, Mr. Chairman, and I apologize 
for having been at a markup, so I couldn't get here before the 
very last speaker on the panel. I would like to say something 
about the ranking member's comments in defense of the Human 
Rights Watch and others. It must be very frustrating to do what 
you do and put together balanced reports and ideas and 
suggestions when we actually right now are a country that pays 
more attention to Rush Limbaugh and some of the wacky talk show 
hosts and reports that come out and blogs, et cetera. I mean, 
it is hard to be heard when you are making sense and you are 
not being dramatic about it, you are trying to make a point. 
And hopefully, the point is made and is heard by Members of 
Congress. But it must be very difficult when the rest of the 
Nation--much of the Nation, I have to say my district doesn't 
feel that way to me--but much of the Nation just is refusing to 
listen and get it. Here is my question, though, that I think 
you could all be helpful with. While this dialogue is going on 
between--the trilateral dialogue between the U.S. State 
Department and Burma and the international community, we still 
have a--well, we have a need to help get humanitarian aid to 
refugees and to ethnic minority areas and internationally 
displaced people. And how are we able to deliver food services 
and health services in the interim? And are we making that 
effort or are we just waiting until we get through this?
    Dr. Beyrer. Well, thank you. Thank you for that question. I 
will say, first of all, that in terms of humanitarian 
assistance, that is part of the administration's stated policy 
will be a modest increase in humanitarian assistance. The 
Congress, of course, has appropriated increased humanitarian 
assistance as well. That is in process. The U.S. was the second 
largest of all the donors after the cyclone.
    About $75 million is the State Department estimate for 
emergency and rehabilitation in the cyclone area. So I think 
certainly from the cyclone many of the international agencies 
and NGOs, nongovernmental organizations and U.S.'s partners 
feel that this was a good example of the ability to deliver 
humanitarian assistance through nongovernmental organizations, 
and avoiding those funds going to the junta or its proxies. And 
so there is really quite good evidence that humanitarian 
assistance can be delivered that is not supporting the junta. 
The Congress has also been supporting cross-border 
interventions to some of the ethnic groups that I mentioned. 
Some of that is detailed in my written testimony.
    And there are modest increases proposed both in the House 
and Senate bills for cross-border aid for the coming year. And 
that aide, again, bypasses the SPDC and its proxies. It is 
delivered in accountable ways. And I think the evidence is 
really emerging that these ethnic cross-border programs really 
are able to deliver health care, humanitarian assistance, 
primary care in areas that the junta has closed off to 
international NGOs. We had a recent meeting with the UNDP 
director in country, who very much concurred that the idea of 
working through the international agencies where they are able 
to operate, and operating cross-border where the junta does not 
allow them to operate, is probably the right mix of health and 
humanitarian assistance, and the United States has certainly 
been a generous donor. Although I think everybody agrees that 
Burma's humanitarian needs are much greater than what the 
international community is able to do now. And a lot of that, 
of course, is because the junta has so grossly underfunded the 
social sector all together, and has so grossly underfunded 
health care.
    Ms. Woolsey. Mr. Chairman, may I ask one more question?
    Chairman Berman. Yes.
    Ms. Woolsey. Change the subject, same country, however. In 
the discussions that are going on, is there emphasis being put 
on the Burmese military and their recruiting of child soldiers? 
What can the international community do to stop this?
    Mr. Malinowski. Well, that is actually one issue that has 
been raised in the U.N. Security Council, one of the few Burma-
related issues that has managed to get on the U.N. Security 
Council's agenda. And so we hope that the administration and 
other countries will pursue it there. Ultimately, that problem 
is driven by the Burmese military's conflict policy, its 
approach to dealing with ethnic minorities through military 
force, and of sustaining itself as an institution by forcibly 
recruiting very young people into its ranks and then keeping 
them separated from the general population so that you have 
this Army of hundreds of thousands of people who have known no 
other life essentially except for their life in the Army. It is 
a way of politically sustaining themselves.
    So, you know, because it is a very deeply rooted problem it 
probably is not going to be fully resolved until the political 
fundamentals of Burma change. But in the meantime, one can 
shame them, one can raise this in the U.N. You know, this 
government actually does have some sense of wanting to be 
legitimate around the world, one can do things that can at 
least diminish the practice. And that is what I would hope the 
administration and the international community focus on.
    Ms. Woolsey. Well, they are fighting ethnic group against 
ethnic group. I mean they don't need this big Burmese Army to 
fight the world. So I mean when can they feel secure and how 
can we go about that so that they don't need this gross army?
    Mr. Malinowski. Well, they don't need it, but they think 
they need it. They are extremely paranoid. Their fears of 
invasion are perhaps irrational, but they are real. What one 
hopes they will come to understand, or at least elements of the 
military will come to understand is that their best hope in the 
long term for maintaining the military's role inside Burma is 
to align themselves with those political forces in the country 
that have legitimacy and popular support, namely Aung San Suu 
Kyi, the leaders of these ethnic minority organizations, that 
the likelihood of what they fear most, a regime collapse, is 
much greater if they put off that day of reconciliation.
    Mr. Din. Mr. Chairman, can I add? There are two things. One 
thing is that using child soldiers essentially are war crimes, 
crimes against humanity. It is in the Security Council now. But 
so far, U.N. Security Council will not be able to take issue 
because China and Russia are defending for the Burmese regime 
at the Security Council. But one thing the United States can do 
is to impose sanctions on Burmese military. It does on the Iran 
Revolutionary Guards. This is one way to punish the military 
regime, the second largest Army in Southeast Asia which is 
second only to Chinese soldiers.
    Also, I believe the United States must work hard to get the 
global arms embargo on the U.N. Security Council. The more they 
can purchase weapons, the more they can expand the military. 
But there is a shortage of members who they can get to work in 
the Army. Then they have to conscript children under 18 to put 
in the Army. And second point, they are for the regime, but 
they don't actually need such a strong Army, but they need it 
because they want to control the power. Having a strong army 
will help with the regime to control the ethnic minorities at 
the border and control the civilian population on the mainland. 
So this is the Army they need.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Berman. Thank you. Mr. Manzullo.
    Mr. Manzullo. Thank you. I was tied up in Financial 
Services. And forgive me for not having the opportunity to 
personally hear your testimony. I have got just one question. 
How do you feel personally, what do you believe will be the 
impact of the Obama administration reaching out directly to the 
dictatorship in Burma?
    Mr. Din. Basically, we agree that sanctions should be 
reinforced by the engagement, engagement meaning high level 
substantive engagement. But such engagement, we support the new 
U.S. policy of using sanctions and engagement together. But we 
think such an engagement should be dealing with both sides, the 
opposition led by Aung San Suu Kyi, and the Burmese military 
junta. We believe such engagement should be within a reasonable 
time frame, with clear benchmarks and transparency. In my 
testimony, I state that U.S. engagement with the regime should 
start from ground zero. If there is an improvement during the 
talks, then we have to consider lifting the possible sanctions. 
If there is no improvement, there is continued attacking of the 
ethnic minorities, then the U.S. must consider continuing 
sanctions and taking other action at the U.N. Security Council.
    Mr. Manzullo. Dr. Beyrer, did you want to touch that?
    Dr. Beyrer. Yeah, thank you for that question. I think it 
is a fundamental one that we have all been asking ourselves. I 
guess I would say several things. One is that there has been 
this heartening increase in activity among the NLD and the 
democratic opposition in Burma in the past several weeks. And I 
think that it is critically important for the U.S. to use 
whatever interests this junta has in legitimacy to really 
advance the NLD and that party. So for example, we should be 
calling for and insisting that not simply that people meet with 
Aung San Suu Kyi, but that she gets to meet with her party.
    Mr. Manzullo. Right.
    Dr. Beyrer. That she gets to be properly briefed, that the 
central executive committee, the CEC of her party gets to meet 
and debate this policy and discuss it, and without surveillance 
and junta minders and guards, and not at their convenience 
entirely. You know, not just that she simply is taken to a 
guest house to meet with a visiting dignitary, but that they 
really are allowed to begin a substantive debate on this new 
policy.
    Mr. Manzullo. Mr. Malinowski.
    Mr. Malinowski. I think that the interesting question is 
why they want to engage with us. And a lot will depend on the 
answer to that question. You know, one possibility----
    Mr. Manzullo. They want money. I mean what else?
    Mr. Malinowski. They have the money that they want right 
now. We talked a little bit how to get at that through the 
sanctions. But I think one theory is that they do want more 
legitimacy than they have. They want to be recognized. They 
don't want to be treated as the pariahs that they have been. 
And that the sanctions, even though they have not been fully 
implemented, have bitten enough in terms of the personal 
financial interests of some members of the regime, their 
families, their business cronies that they want to explore with 
us if there is a way to get out from them. And then the 
question is, how much are they willing to do to achieve those 
goals?
    The other theory, the more cynical theory that I put on the 
table is that this is just a ploy to buy time. So the point of 
the engagement over the next few months should be to test that. 
And the critical thing is that it be very disciplined and very 
time-bound, and not an endless process. Because if it is an 
endless process, then they get to play.
    Mr. Manzullo. It gives them legitimacy.
    Mr. Malinowski. And that it be backed by not just the 
existing sanctions that we have, but over time much more 
tightly and effectively implemented financial sanctions that 
get at the money that they are earning through the export of 
natural resources in sum.
    Mr. Manzullo. Do you think that the United States gave away 
a bargaining chip, call it what you want, when it did not 
insist that Aung San Suu Kyi would be released from her house 
prison, call it house arrest, and be allowed to participate in 
the next general elections?
    Mr. Malinowski. No. I actually think it would be a mistake 
to make Aung San Suu Kyi the central demand. I think if she 
were here, and I hesitate, obviously, to speak for her, but 
based on my reading of her speeches and thoughts and statements 
over the years, I think she would say that she would rather be 
under house arrest and engaged in a genuine political process 
leading to change in Burma than out free and not engaged in a 
genuine political process. The last time she was freed, there 
was not a genuine political process and they tried to kill her.
    So that is not the solution either. So making it just about 
whether she is ``free'' or under house arrest, I think 
personalizes it too much and misses what is the central issue. 
The central issue is, is there a genuine political process 
inside the country whereby the military and the opposition are 
working out these problems? And that should be the central 
demand as we go forward. And if the U.S. dialogue with Burma 
can stimulate that, that is great. If not, then we need to be 
prepared to escalate the pressure.
    Mr. Manzullo. Thank you. Thank you, Mr. Chairman.
    Chairman Berman. Can we close?
    Ms. Jackson Lee. I would like questions.
    Chairman Berman. The gentlelady is recognized.
    Ms. Jackson Lee. Mr. Chairman, thank you. I started out 
this morning with a great deal of displeasure, and the tone of 
the hearing has been enormously conciliatory, so I will try to 
stay at that tone, but offer some other suggestions. I was 
trying to read a quote and my time ran out in my opening 
statement, so let me read a quote from senior General Than 
Shwe--I hope that I have it pronounced nearly right--the junta 
leader. His quote is: ``Some powerful nations are resorting to 
various ways to pressure and influence our nation under various 
pretexts. However, the (military) government''--it said ``the 
government,''--``does not get frightened whenever 
intimidated.''<greek-l>As per AP article online deg. I am not 
sure whether that is a correct interpretation, but that is what 
is printed in a New York Times article dated October 20th. I am 
concerned whether or not the across-the-board message of 
engagement fits all sizes. And we have been dealing with Burma 
and members of this committee far longer than myself 
representing Burmese populations.
    I indicated that I speak in the name of a gentleman in 
Houston who has come over and over again to my office to speak 
about the tragedies and the abhorrent conditions that his 
family members live in, inability to visit. And so I know that 
we have the North Koreans, and they are tragic and horrific, 
and there are a number of those of that ilk. But what do we 
gain, where are we trying to go with this policy? Because it 
seems to me that the engagement, if I am hearing it, maybe you 
could define it for me, only further promotes along the 
individual who I guess may be doing tough talk, and maybe 
someone will tell me it is only tough talk and we can actually 
gain their confidence, and the thousands who are still 
political prisoners. They are still spending $1 a year on 
health care or less.
    And the press is nil. And I am afraid that we are not even 
seeing the extent of the violence, people who have disappeared, 
missing family members. And I am with the administration. I 
think engagement certainly bodes well. But maybe in this 
instance, it is so arrogant, so abusive that I wonder what 
direction and what do you think we will accomplish and in what 
time frame? And if I could start from the gentleman to my far 
left and just go through. Thank you.
    Mr. Malinowski. Thank you. I think it is a very useful 
caution. You know, if you are going to be talking to people 
like this, you have to know who you are talking to. You have to 
have no illusions about who they are, what their interests are, 
what their conception of you is, what they hope to get out of 
that conversation. And, you know, sometimes when we have these 
illusions that, well, if only we talk to them and exposed them 
to our system and our values and our way of life they will see 
that what they are doing is actually not in the best interests 
of their country. That kind of thinking I think is profoundly 
naive.
    But if you have a conversation where you talk about what 
they are really interested in, recognize that they are self-
interested, that they are going to make calculations based on 
their self interest, and you try to affect their calculations 
by laying out ways that they can achieve their goals and ways 
in which we can stymie the achievement of their goals, that is 
the kind of conversation, tough-minded conversation that 
sometimes can contribute to progress. If that is what the 
engagement is, and engagement gets thrown around in this town--
--
    Ms. Jackson Lee. You are right.
    Mr. Malinowski [continuing]. To mean a hundred different 
things. We should almost not use it. But if that is what they 
mean, that can be a constructive and principled process. And I 
think that would be worthy of our collective support. If it is 
more just talking for talking sake, then I think we should all 
be very, very skeptical about it.
    Ms. Jackson Lee. Dr. Beyrer. Thank you.
    Dr. Beyrer. Thank you for your question.
    Ms. Jackson Lee. And you are an M.D. So the crisis of 
health care.
    Dr. Beyrer. Indeed. Indeed. I think one of the things for 
those of us who have been involved in Burma, I have been 
working on Burma issues and health for 16 years now, what is 
very striking is that it is clear that the junta has been 
active, and Than Shwe as its head, for the last several years 
in ways that surprised people. So they pushed this initiative 
finally. They have been writing that constitution, that new 
constitutional convention has been going on for years with 
never a draft appearing. Suddenly there is a constitution and 
they wanted to have their referendum. They were hit by the 
largest cyclone, cyclone Nargis in so many years.
    They held the referendum anyway. They gave the people of 
the delta an additional 2 weeks, and they were still deep in 
the middle of the crisis when they held it. They moved that 
forward. They are moving forward with the 2010 elections. The 
attacks against the ethnics that everybody has been talking 
about today are very much a part of a changing policy coming 
from them to say these ethnic cease fires that we have had for 
years are over, we want you to disarm, we want you to become 
border patrol forces. They have a plan. And they are moving in 
ways that I think have taken everybody who is a Burma watcher 
by surprise.
    Chairman Berman. The time of the gentlelady has expired.
    Ms. Jackson Lee. I thank the chairman.
    Chairman Berman. As we close the hearing, I just want to 
establish hopefully none of you were invited with the 
implication that we wanted you to testify one way or another on 
any of the issues. If there was any issue of that, I think it 
is certainly appropriate to raise it. Secondly----
    Ms. Ros-Lehtinen. Mr. Chairman, just on that, I don't know 
if that refers to my statement. It has nothing to do with you. 
I am saying that the human rights organizations are more and 
more losing their voice for advocating for human rights, and 
more and more trying to sound like mouthpieces of whatever 
administration, whether it is Bush or Reagan or Bush first, 
second, third, Obama, it has nothing to do with partisan 
issues. And it is no dis on you or our witnesses here. I was 
reading an op-ed that said some of these groups are losing 
their voice. You are supposed to stand up for dissidents. And 
that is why I said that more and more they are sounding like 
administration witnesses. I am not saying that you have invited 
them as administration witnesses. I am saying that what I hear 
from them, it is like hearing an administration witness. That 
is all I meant, in case you were referring to me.
    Chairman Berman. Well, the implication was that somehow 
they were brought here to reflect a preconceived position.
    Ms. Ros-Lehtinen. Oh, no.
    Chairman Berman. Okay. We have straightened that out. I 
would like to know more about these parties that I haven't been 
invited to. And I will just add, having nothing do with the 
subject matter of this hearing, that I thought that the column 
referred to by the ranking member made some very important 
points that should be at least reflected upon by Mr. 
Malinowski, by Human Rights Watch. Especially when we get into 
issues of legitimacy and delegitimizing and tools that are used 
for all of that. But why don't we just call the hearing over. 
It has been very helpful. We really do appreciate your 
testimony. I want to ask unanimous consent to include the 
following in the record of this hearing: An open letter from 16 
international NGOs on U.S. policy toward Burma and a letter 
from the Karen National Union.
    And without objection, those, that open letter and that 
other letter will be included in the record.
    And with that, the hearing is adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Be
                               rman 
                               FTR deg.__
Additional Material Submitted for the Record by the Honorable Howard L. 
Berman, a Representative in Congress from the State of California, and 
                 Chairman, Committee on Foreign Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Campbell deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Beyer deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
